Department of Homeland Security
   Ofﬁce of Inspector General



  Compendium of Disaster Assistance Programs 





OIG-09-49                              April 2009
                    \

COMPENDIUM OF DISASTER ASSISTANCE PROGRAMS
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                           April 3, 2009

                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. As part of the Inspector General community, our responsibility is to provide oversight
for presidentially declared disasters.

The DHS OIG, through the Council of the Inspectors General on Integrity and Efficiency
(CIGIE) has developed an inventory of federal programs that provide assistance to affected
individuals, states, localities, nonprofit organizations, businesses, and other public entities. It
is based on a survey of other CIGIE members and a review of the General Services
Administration, Catalog of Federal Domestic Assistance and the Federal Emergency
Management Agency’s Disaster Assistance: A Guide to Recovery Programs (FEMA­
229/September 2005).

This compendium has been developed through the best information available to our office, and has
been discussed with the Inspector General community. We trust this compendium will serve as a
tool for agencies to use in identifying programs that are available to provide assistance during a
disaster. We express our appreciation to all who contributed to the preparation of this compendium.




                                               Richard L. Skinner 

                                               Inspector General 

Table of Contents/Abbreviations 


    Overview................................................................................................................................... 1 


  Appendices
    Appendix A: Listing of Disaster Assistance Programs ........................................................ 6 

    Appendix B: Report Distribution ..........................................................................................50                      


  Abbreviations
    AFWS               Automated Flood Warning System
    AIP                Airport Improvement Program
    BPHC               Bureau of Primary Health Care
    CAP-SSSE           Community Assistance Program - State Support Services Element
    CCC                Commodity Credit Corporation
    CFDA               Catalog of Federal Domestic Assistance
    CFR                Code of Federal Regulation
    CIGIE              Council of the Inspectors General on Integrity and Efficiency
    CNCS               Corporation for National and Community Service
    DHAP               Disaster Housing Assistance Program
    DHS                Department of Homeland Security
    DIC                Dependency Indemnity Compensation
    DOC                Department of Commerce
    DOD                Department of Defense
    DOI                Department of Interior
    DOJ                Department of Justice
    DOL                Department of Labor
    DOT                Department of Transportation
    ED                 Department of Education
    EDA                Economic Development Administration
    EMPG               Emergency Management Performance Grant
    EOC                Emergency Operation Center
    EPA                Environmental Protection Agency
    FBI                Federal Bureau of Investigations
    FDIC               Federal Deposit Insurance Corporation
    FEMA               Federal Emergency Management Agency
    FHA                Federal Housing Administration
    FISHTEC            Cooperative Institute for Fisheries Molecular Biology
    FSA                Farm Security Administration
GSA      General Services Administration
HIP      Housing Improvement Program
HIV      Human Immunodeficiency Virus
HHS      Department of Health and Human Services
HSGP     Homeland Security Grant Program
HUD      Department of Housing and Urban Development
IHS      Indian Health Services
JABG     Juvenile Accountability Block Grant
KDHAP    Katrina Disaster Housing Assistance Program
LIHEAP   Low Income Home Energy Assistance Program
LSC      Legal Service Corporation
MMRS     Metropolitan Medical Response System
NARA     National Archives and Records Administration
NCHIP    National Criminal History Improvement Program
NDMS     National Disaster Medical System
NFIF     National Flood Insurance Fund
NFIP     National Flood Insurance Program
NIEHS    National Institute of Environmental Health Services
NIMS     National Incident Management System
NRCS     National Resources Conservation Services
OIG      Office of Inspector General
PAL      Police Athletic League
PHA      Public Housing Agencies
RCPGP    Regional Catastrophic Preparedness Grant Program
SBA      Small Business Administration
SSA      Social Security Administration
TREAS    Department of the Treasury
UASI     Urban Areas Security Initiative
U.S.C.   United States Code
US&R     Urban Search and Rescue
USDA     U.S. Department of Agriculture
USPS     United States Postal Service
VA       Veterans Administration
WIA      Workforce Investment Act
WIPA     Work Incentives Planning and Assistance
WRP      Wetland Reserve Program
OIG

Department of Homeland Security
Office of Inspector General

         Overview
                           The Department of Homeland Security (DHS), Office of Inspector General
                           (OIG), through the Council of the Inspectors General on Integrity and
                           Efficiency (CIGIE) has developed an inventory of federal programs that
                           provide assistance to individuals, states, localities, nonprofit organizations,
                           and businesses impacted by a disaster.

                           Federal agencies provide both financial and non-financial support in response
                           to presidentially declared disasters. They administer assistance during
                           presidentially declared disasters through disaster specific programs, regular
                           ongoing programs that are applied during a disaster, and through mission
                           assignments and interagency agreements from the Federal Emergency
                           Management Agency (FEMA) to other federal agencies. These programs
                           provide assistance to individuals, states, localities, non-profit organizations,
                           and businesses. Congress provides the funding for these programs through
                           annual federal appropriations or through supplemental appropriations.

                           When funds become available, they may flow directly from the federal
                           government to disaster victims or businesses, or the federal government may
                           issue the funds to the state, localities, or a nonprofit organization that
                           distributes the funds to the disaster victims or businesses.

                           This inventory was developed by surveying the federal Inspector General
                           community as a means to identify all financial and non-financial assistance
                           provided by each agency in support of a disaster. We also reviewed the
                           Catalog of Federal Domestic Assistance (CFDA) website1 and FEMA’s
                           Disaster Assistance: A Guide to Recovery Programs2. This inventory does
                           not include basic research provided by federal agencies, or the mission
                           assignment activities that are more directly related to response activities. It
                           also does not include programs administered by non-government agencies,
                           although they provide extensive resources during declared disasters.

                     The survey questionnaire and other documents reviewed indicate there is an array
                     of programs for individual and community needs that may be of



1
  Data in this report is as of January 14, 2009. Website is subject to updates; refer to www.cfda.gov for current 

information. 

2
  FEMA-229 dated September 2005. 





                                       Compendium of Disaster Assistance Programs

                                                          Page 1
assistance before, during, and after a declared disaster, depending upon the
circumstances and available resources.

We identified 240 programs that provide disaster assistance. A complete
listing of the programs is included in Appendix A. Table 1 depicts the
number of disaster assistance programs per agency or department. This table
represents a breakdown of the total number of disaster assistance programs
into the 22 agencies or departments that administer them.

         Agency or Department                           Number of Disaster
                                                        Assistance Programs
 U.S. Department of Agriculture                                 49
 Department of Homeland Security                                51
 Department of Health and Human                                 35
 Services
 Department of Commerce                                         16
 Department of Housing and Urban                                12
 Development
 Department of Interior                                         10
 Department of Justice                                          10
 Department of Defense                                           9
 Department of Education                                         9
 Corporation for National and Community                          8
 Service
 Veterans Administration                                         7
 Department of the Treasury                                      5
 Social Security Administration                                  4
 National Archives and Records                                   3
 Administration
 Department of Labor                                             2
 Department of Transportation                                    2
 General Services Administration                                 2
 Small Business Administration                                   2
 Environmental Protection Agency                                 1
 Federal Deposit Insurance Corporation                           1
 Legal Services Corporation                                      1
 United States Postal Service                                    1
 Total               22                                         240
Table 1 - Source: Compendium of Disaster Assistance Programs




          Compendium of Disaster Assistance Programs


                            Page 2 

The agencies/departments with the most programs are the U.S. Department of
Agriculture (USDA), DHS, and Department of Health and Human Services
(HHS). Combined, these three agencies administer 135 of the programs, or
56%. Figure 1 below shows a graph of this breakdown by agencies/
departments.



                  Agencies/Department's Disaster
                 Assistance Programs Breakdown




                       44%

                                                         56%




       Agencies in this grouping are USDA, DHS, HHS



       Agencies in this grouping are DOC, HUD, DOI, DOJ, DOD, ED,
       CNCS, VA, TREAS, SSA,NARA, DOL, DOT, GSA, SBA,EPA,
       FDIC, LSC, USPS

Figure 1 - Source: Compendium of Disaster Assistance Programs

Each program has a functional area in which it is administered. Through the
use of the CFDA website, we have identified 27 functional areas. The 240
programs were broken down into these functional areas, with 148 programs
falling into more than 1 functional area.

Community Development has the largest number of programs with a total of
64 programs, or 27%. Table 2 shows the number of programs in each
functional area.




          Compendium of Disaster Assistance Programs

                            Page 3
                                  Functional Area                                 # of Programs
                            Advisory Services                                              14
                            Agriculture                                                    26
                            Building Equipment                                             16
                            Business and Commerce                                          45
                            Community Development                                          64
                            Conservation                                                   41
                            Criminal Justice                                               12
                            Cultural Affairs                                                1
                            Debris Removal                                                  9
                            Education                                                      20
                            Emergency Preparedness                                         30
                            Employment                                                     17
                            Energy                                                         21
                            Environment Quality                                             8
                            Flood                                                          42
                            Food and Nutrition                                              7
                            Health and Services                                            31
                            Housing                                                        23
                            Income Security                                                33
                            Loans                                                          18
                            Mitigation Assistance                                          35
                            Parks and Recreation                                           25
                            Public Assistance                                              17
                            Public Works                                                   14
                            Roads and Bridges                                              18
                            Surplus Property                                                5
                            Transportation                                                 16
                           Table 2 - Source: Compendium of Disaster Assistance Programs

                           Using information contained on the CFDA website, we identified four
                           applicant types:

                           �   businesses,
                           �   individuals,
                           �   state and other local governments, and
                           �   all applicants.3

                           Figure 2 illustrates the number of disaster assistance programs by applicant
                           type. As shown below, the largest applicant type, with 166 programs or 69%,
                           is the State and other local governments.



3
  All applicants means that anyone can apply for the disaster assistance program, including businesses, individuals, and
state and other local governments.

                                      Compendium of Disaster Assistance Programs

                                                         Page 4
              Number of Programs by Applicant Type

    180
                                            166
    160

    140

    120

    100
                                                                  Disaster
                                                                  Assistance
     80
                                                                  Programs
     60
                              38
     40
                27

     20                                                     9

      0
           Business es    Individuals    State and       All
                                        other Locals applicants


                             Applicant Type




Figure 2 - Source: Compendium of Disaster Assistance Programs

This inventory of programs provides information for Inspectors General to use
as a means of becoming knowledgeable of the programs available for
financial and non-financial assistance during a disaster. It can be used as a
tool for awareness of similar programs available in other federal agencies.

We compiled this information under the authority of the Inspector General
Act of 1978, as amended. As agreed upon with the CIGIE, we performed the
following non-audit services to compile this compendium to use as a tool for
agencies or departments in identifying disaster assistance programs that are
available to provide assistance. We provided the CIGIE with the opportunity
to verify the information in this compendium and we have incorporated their
comments as appropriate.




          Compendium of Disaster Assistance Programs

                            Page 5
Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                        PURPOSE                                    CFDA
                                                                                                              NUMBER
 CNCS          Retired and Senior      The Retired and Senior Volunteer Program provides grants                 94.002
               Volunteer Program       to qualified agencies and organizations for the dual purpose
                                       of engaging persons 55 and older in volunteer service to
                                       meet critical community needs; and to provide a high
                                       quality experience that will enrich the lives of volunteers.
 CNCS          Learn and Serve         To encourage elementary and secondary schools and                        94.004
               America - School        community-based agencies to create, develop, and offer
               and Community           service-learning opportunities for school-age youth; educate
               Based Programs          teachers about service-learning and incorporate service-
                                       learning opportunities into classrooms to enhance academic
                                       learning; coordinate adult volunteers in schools; and
                                       introduce young people to a broad range of careers and
                                       encourage them to pursue further education and training.
 CNCS          Learn and Serve         This grant program has two main objectives:                              94.005
               America - Higher        (1) To support high quality service learning projects that
               Education               engage students in meeting community needs with
                                       demonstrable results, while enhancing students' academic
                                       and civic learning; and (2) to support efforts to build
                                       capacity and strengthen the service infrastructure with
                                       institutions of higher education.
 CNCS          AmeriCorps              AmeriCorps is the cornerstone of the Corporation's national              94.006
                                       service programs. AmeriCorps addresses pressing
                                       education, public safety, human, and environmental needs
                                       of our Nation's communities by encouraging Americans to
                                       serve either part or full-time. AmeriCorps programs have
                                       four goals: (1) getting things done by providing services
                                       with direct and demonstrable results; (2) strengthen
                                       communities and uniting individuals of different
                                       backgrounds in a common effort to improve their
                                       communities; (3) encourage responsibility through service
                                       and civic education (AmeriCorps enables members to see
                                       themselves as leaders and problem solvers and fulfill their
                                       responsibilities to their communities); and (4) expand
                                       opportunities in return for devoting a year of their lives to
                                       national service. AmeriCorps members may receive
                                       education awards for qualified postsecondary education
                                       expenses or to pay off qualified student loans.
 CNCS          Planning and            Innovation grants support innovative demonstration service               94.007
               Program                 programs that build the ethic of service among Americans of
               Development             all ages and backgrounds. These include the AmeriCorps
               Grants                  Education Award Program, AmeriCorps Promise Fellows,
                                       Martin Luther King, Jr., Day of Service grants, and
                                       Disability Outreach grants.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 6 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                        PURPOSE                                    CFDA
                                                                                                              NUMBER
 CNCS          Foster Grandparent      The Foster Grandparent Program provides grants to                        94.011
               Program                 qualified agencies and organizations for the dual purpose of
                                       engaging persons 60 or older, with limited incomes, in
                                       volunteer service to meet critical community needs; and to
                                       provide a high quality volunteer experience that will enrich
                                       the lives of the volunteers. Program funds are used to
                                       support Foster Grandparents in providing supportive, person
                                       to person service to children with exceptional or special
                                       needs.
 CNCS          Volunteers in           To supplement efforts of private, nonprofit organizations                94.013
               Service to America      and Federal, State, and local government agencies to
                                       eliminate poverty and poverty-related problems by enabling
                                       persons from all walks of life and all age groups to perform
                                       meaningful and constructive service as volunteers.
 CNCS          Senior Companion        The Senior Companion Program provides grants to qualified                94.016
               Program                 agencies and organizations for the dual purpose of engaging
                                       persons 60 and older, particularly those with limited
                                       incomes, in volunteer service to meet critical community
                                       needs; and to provide a high quality experience that will
                                       enrich the lives of the volunteers. Program funds are used
                                       to support Senior Companions in providing supportive,
                                       individualized services to help adults with special needs
                                       maintain their dignity and independence.
 DHS           Homeland Security       To enhance the ability of the State, local and tribal                    97.067
               Grant Program           governments to prepare, prevent, respond to, and recover
               (HSGP)                  from terrorist attacks and other disasters. The HSGP is the
                                       primary funding mechanism for building and sustaining
                                       national preparedness capabilities. HSGP is comprised of
                                       four separate grant programs.
 DHS           State Homeland          To build capabilities to prevent, deter, respond to, and                 97.073
               Security Program        recover from incidents of terrorism at the State and local
                                       levels through planning, equipment, training, and exercise
                                       activities and support the implementation of State homeland
                                       security strategies and key elements of the national
                                       preparedness architecture, including the National
                                       Preparedness Goal, the National Incident Management
                                       System and the National Response Plan.
 DHS           National Incident       To support the development, integration, and deployment of               97.107
               Management              incident management systems. This includes operational,
               System (NIMS)           technical and programmatic standards in support of
                                       nationwide implementation of the NIMS model; establish a
                                       unified approach to incident management, as well as
                                       standard command and management structures.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 7 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                        PURPOSE                                    CFDA
                                                                                                              NUMBER
 DHS           Homeland Security       To provide direct assistance to State, regional, local and               97.007
               Preparedness            tribal jurisdictions to improve their ability to prevent,
               Technical               protect against, respond to, and recover from major events,
               Assistance              including threats or acts of terrorism.
               Program
 DHS           Urban Areas             To support the unique multi-discipline planning, operations,             97.008
               Security Initiative     equipment, training, and exercise needs of high threat, high
               (UASI)                  density Urban Areas, and to assist them in building and
                                       sustaining capabilities to prevent, protect against, respond
                                       to, and recover from threats or acts of terrorism.
 DHS           State Access to the     To encourage greater State participation in response to                  97.013
               Oil Spill Liability     actual or threatened discharges of oil.
               Trust Fund
 DHS           Hazardous               To support State, local, and Indian tribal governments in oil            97.021
               Materials               and hazardous materials emergency planning and exercises
               Assistance              and enhance their capabilities to interact with the National
               Program                 Response System; through the States, provide technical and
                                       financial assistance to support activities under the
                                       Comprehensive Hazardous Materials (Hazmat) Emergency
                                       Response – Capability Assessment Program.
 DHS           Flood Insurance         To enable persons to purchase insurance against physical                 97.022
                                       damage to or loss of buildings and/or contents therein
                                       caused by floods, mudslide (i.e., mudflow), or flood-related
                                       erosion, thereby reducing Federal disaster assistance
                                       payments, and to promote wise floodplain management
                                       practices in the Nation’s flood-prone and mudflow-prone
                                       areas.
 DHS           Community               To ensure that communities participating in the National                 97.023
               Assistance              Flood Insurance Program (NFIP) are achieving flood loss
               Program – State         reduction measures consistent with program direction. The
               Support Services        CAP-SSSE is intended to identify, prevent and resolve
               Element (CAP­           floodplain management issues in participating communities
               SSSE)                   before they develop into problems requiring enforcement
                                       action.
 DHS           Emergency Food          To supplement and expand ongoing efforts to provide                      97.024
               and Shelter             shelter, food, and supportive services for needy families and
               National Board          individuals. To strengthen efforts to create more effective
               Program                 and innovative local programs by providing supplemental
                                       funding for them. To conduct minimum rehabilitation of
                                       existing mass shelter or mass feeding facilities, but only to
                                       the extent necessary to make facilities safe, sanitary and
                                       bring them into compliance with local building codes.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 8 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                        PURPOSE                                    CFDA
                                                                                                              NUMBER
 DHS           National Urban          Develop, maintain, deploy, coordinate, and support National              97.025
               Search and Rescue       Urban Search and Rescue resources on-scene to locate,
               (US&R) Response         provide initial medical treatment, and extricate victims of
               System                  incidents requiring specialized search and rescue operations
                                       while simultaneously enhancing the US&R response
                                       capabilities of State and local governments.
 DHS           Debris Removal          The project will consist of the incorporation of a captive               97.064
               Insurance               insurance company by the City of New York in the State of
                                       New York and its contractors for claims arising from debris
                                       removal at the World Trade Center following the terrorist
                                       attacks of September 11, 2001.
 DHS           Emergency               To defray travel and per diem expenses of State, local and               97.026
               Management              tribal emergency management personnel who attend training
               Institute - Training    courses conducted by the Emergency Management Institute,
               Assistance              at the Emmitsburg, Maryland facility; Bluemont, Virginia
                                       facility; Nobel Training Center in Anniston, Alabama; and
                                       selected off-site locations. Its purpose is to improve
                                       emergency management practices among State, local and
                                       tribal government managers, in response to emergencies and
                                       disasters. Programs embody the Comprehensive Emergency
                                       Management System by unifying the elements of
                                       management common to all emergencies: planning,
                                       preparedness, mitigation, response, and recovery.
 DHS           Emergency               The program currently consists of 66 courses available to                97.027
               Management              participants, with the objective of enhancing public and
               Institute               selected audience knowledge of emergency management
               Independent Study       practices among officials of Federal, State, local and tribal
               Program                 governments and voluntary organizations in response to
                                       emergencies and disasters.
 DHS           Emergency               To improve emergency management practices among State,                   97.028
               Management              local and tribal government managers, and Federal officials
               Institute - Resident    as well, in response to emergencies and disasters. Programs
               Educational             embody the Comprehensive Emergency Management
               Program                 System by unifying the elements of management common
                                       to all emergencies: planning, preparedness, mitigation,
                                       response, and recovery.
 DHS           Flood Mitigation        To assist States and communities in implementing measures                97.029
               Assistance              to reduce or eliminate the long-term risk of flood damage to
                                       buildings, manufactured homes, and other structures
                                       insurable under the NFIP.
 DHS           Community               To provide loans subject to Congressional loan authority, to             97.030
               Disaster Loans          any local government that has suffered substantial loss of
                                       revenues in an area in which the President designates a
                                       major disaster exists. The funds can only be used to
                                       maintain existing functions of a municipal operating
                                       character and the local government must demonstrate a need
                                       for financial assistance.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.

                                      Compendium of Disaster Assistance Programs


                                                         Page 9 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                         PURPOSE                                   CFDA
                                                                                                              NUMBER
 DHS           Cora Brown Fund         To use funds made possible by a bequest of funds from the                97.031
                                       late Cora C. Brown of Kansas City, Missouri, who left a
                                       portion of her estate to the United States for the purpose of
                                       helping victims of natural disasters not caused by or
                                       attributed to war.
 DHS           Crisis Counseling       To provide immediate crisis counseling services, when                    97.032
                                       required, to victims of a major federally declared disaster
                                       for the purpose of addressing mental health problems caused
                                       or aggravated by a major disaster or its aftermath.
                                       Assistance is short-term in nature and provided at no cost to
                                       the disaster victims.
 DHS           Disaster Legal          To provide legal assistance to individuals affected by a                 97.033
               Services                major federal disaster.
 DHS           Disaster                To provide special federally funded weekly benefits to                   97.034
               Unemployment            workers and self-employed individuals who are unemployed
               Assistance              as a direct result of a Presidentially-declared major disaster,
                                       and who are not eligible for regular Unemployment
                                       Insurance benefits paid by States. (Administered by DOL
                                       through funding from FEMA.)
 DHS           Disaster Grants –       To assist State and local governments in recovering from the             97.036
               Public Assistance       devastating effects of disasters by providing assistance for
               (Presidentially         debris removal, emergency protective measures and the
               Declared Disasters)     repair, restoration, reconstruction or replacement of public
                                       facilities or infrastructure damaged or destroyed.
 DHS           Hazard Mitigation       To provide States and local governments financial                        97.039
               Grant                   assistance to implement measures that will permanently
                                       reduce or eliminate future damages and losses from natural
                                       hazards through safer building practices and improving
                                       existing structures and supporting infrastructure.
 DHS           Chemical Stockpile      To enhance emergency preparedness capabilities of the                    97.040
               Emergency               States, local, and tribal communities at each of the eight
               Preparedness            chemical agent stockpile storage facilities. The purpose of
               Program                 the program is to assist States and local communities in
                                       efforts to improve their capacity to plan for and respond to
                                       accidents associated with the storage and ultimate disposal
                                       of chemical warfare materials.
 DHS           National Dam            To encourage the establishment and maintenance of                        97.041
               Safety Program          effective State programs intended to ensure dam safety, to
                                       protect human life and property, and to improve State dam
                                       safety programs.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 10 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                         PURPOSE                                   CFDA
                                                                                                              NUMBER
 DHS           Emergency               To provide resources to assist State and local governments               97.042
               Management              to sustain and enhance all-hazards emergency management
               Performance             capabilities. All hazards approach to emergency response,
               Grants (EMPG)           including the development of a comprehensive program,
                                       planning, training, exercises, sets the stage for an effective
                                       and consistent response to any threatened or actual disaster
                                       or emergency, regardless of the cause. States have the
                                       opportunity to use EMPG funds to further strengthen their
                                       ability to support emergency management activities while
                                       simultaneously addressing issues of national concern as
                                       identified in the National Priorities of National Preparedness
                                       Guidelines.
 DHS           Cooperating             To increase local involvement in, and ownership of, the                  97.045
               Technical Partners      development and maintenance of flood hazard maps
                                       produced for the NFIP.
 DHS           Fire Management         To provide grants to States, Indian tribal governments and               97.046
               Assistance Grant        local governments for the mitigation, management and
                                       control of any fire burning on publicly (nonfederal) or
                                       privately owned forest or grassland that threatens such
                                       destruction as would constitute a major disaster.
 DHS           Pre-Disaster            To provide States and communities with a much needed                     97.047
               Mitigation              source of pre-disaster mitigation funding for cost-effective
                                       hazard mitigation activities that are part of a comprehensive
                                       mitigation program, and that reduce injuries, loss of life, and
                                       damage and destruction of property.
 DHS           Disaster Housing        To provide financial assistance and, if necessary, direct                97.048
               Assistance to           assistance to individuals and households affected as a direct
               Individuals and         result of a presidentially declared major disaster or
               Households in           emergency, who have uninsured or under-insured, necessary
               Presidential            expenses and serious needs and are unable to meet such
               Declared Disaster       expenses or needs through other means.
               Areas
 DHS           Presidential            To address disaster-related housing needs of individuals and             97.049
               Declared Disaster       households suffering hardship within an area which, by
               Assistance -            Presidential declaration, has been designated as a disaster
               Disaster Housing        area.
               Operations for
               Individuals and
               Households
 DHS           Presidential            To provide assistance to individuals and households affected             97.050
               Declared Disaster       by a disaster or emergency declared by the President, and
               Assistance to           enable them to address necessary expenses and serious
               Individuals and         needs, which cannot be met through other forms of disaster
               Households –            assistance or through other means such as insurance.
               Other Needs
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.



                                      Compendium of Disaster Assistance Programs


                                                         Page 11 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                         PURPOSE                                   CFDA
                                                                                                              NUMBER
 DHS           Emergency               The purpose of the EOC program is to supplement and                      97.052
               Operations Center       assist State and local efforts to improve their capabilities to
               (EOC)                   respond to emergencies or disasters including any that may
                                       be caused by terrorist attacks using conventional means or
                                       Weapons of Mass Destruction. The program provides
                                       grants to the States to encourage the development of EOCs
                                       that provide flexibility, sustainability, security, survivability
                                       and interoperability. Fully capable emergency operations
                                       facilities at the State and local levels are an essential
                                       element of a comprehensive national emergency
                                       management system and are necessary to ensure continuity
                                       of operations and continuity of government in major
                                       disasters caused by any hazard.
 DHS           Citizen Corps           The purpose of Citizen Corps is to bring together                        97.053
                                       community and government leaders to coordinate
                                       community involvement in emergency preparedness,
                                       planning, mitigation, response and recovery.
 DHS           Interoperable           Provide funding to jurisdictions across the Nation for                   97.055
               Communications          demonstration projects that will explore uses of equipment
               Equipment               and technologies to increase interoperability among the fire
                                       service, law enforcement, and emergency medical service
                                       communities. These projects will illustrate and encourage
                                       the acceptance of new technologies and operating methods
                                       to assist communities in achieving interoperability.
 DHS           Competitive             To support the training initiatives that are national in scope           97.068
               Training Grants         and further the FEMA mission to reduce the loss of life,
                                       property and protect the Nation from all hazards, including
                                       natural disasters, acts of terrorisms, and other man-made
                                       disasters, by leading and supporting the Nation in a risk-
                                       based, comprehensive emergency management system of
                                       preparedness, protection, response, recovery and mitigation.
 DHS           Map                     To increase local involvement in, and ownership of,                      97.070
               Modernization           management of the development and maintenance of flood
               Management              hazard maps produced for the NFIP.
               Support
 DHS           Metropolitan            The MMRS program provides funding to designated                          97.071
               Medical Response        localities to assist in maintaining and updating plans,
               System (MMRS)           delivering training, purchasing equipment and
                                       pharmaceuticals, and conducting exercises. The mission of
                                       MMRS is to enhance local medical incident management's
                                       ability to coordinate and respond to a mass casualty event
                                       during the crucial first hours, until significant external
                                       resources arrive and become operational.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 12 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                         PURPOSE                                   CFDA
                                                                                                              NUMBER
 DHS           National Center for     To support investigative and forensics support activities                97.076
               Missing and             related to investigations of missing and exploited children,
               Exploited Children      promote awareness of the child pornography tip line and
                                       Project Alert; and, in conjunction with other Federal law
                                       enforcement agencies, support the establishment and
                                       maintenance of a national resource center and clearinghouse
                                       dedicated to missing and exploited children issues.
 DHS           Public Alert Radios     To disseminate public alerts and warnings by providing                   97.079
               for Schools             Public Alert Radios to eligible schools. Public alerts and
                                       warnings can be disseminated nationwide, regionally, or
                                       locally. This program will: (a) expand delivery of public
                                       alert services to designated schools; and (b) enhance and
                                       strengthen the capability of designated schools to provide
                                       alert and warning information directly to students and the
                                       public.
 DHS           Earthquake              The Earthquake Hazards Reduction Act of 1977, as                         97.082
               Consortium              amended, directs FEMA to operate a program of grants and
                                       assistance to enable States to develop mitigation,
                                       preparedness and response plans, prepare inventories and
                                       conduct seismic safety inspection of critical structures and
                                       lifelines, update building and zoning codes and ordinances
                                       to enhance seismic safety, increase earthquake awareness
                                       and education, and encourage the development of multi-
                                       State groups for such purposes.
 DHS           Hurricane Katrina       To provide case management services for displaced persons                97.084
               Case Management         from Presidentially-declared disaster areas affected by
               Initiative Program      Hurricane Katrina.
 DHS           Alternative             Evaluate the efficacy of non-traditional short and                       97.087
               Housing Pilot           intermediate-term housing alternatives for potential future
               Program                 use in a catastrophic disaster environment. Identify, develop
                                       and evaluate alternatives to, and alternative forms of, FEMA
                                       Disaster Housing to assist victims of the 2005 hurricanes in
                                       the Gulf Coast. Consider the feasibility of these options as
                                       part of the standard package of housing assistance that could
                                       be made available by Federal government agencies or State
                                       agencies for other disasters of various sizes, locations and
                                       impacts. Assure that pilot projects address the needs of a
                                       variety of populations, such as persons with disabilities and
                                       the elderly, historically underserved populations as well as
                                       renters, homeowners, single-family dwelling occupants and
                                       multi-family dwelling occupants.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 13 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                         PURPOSE                                   CFDA
                                                                                                              NUMBER
 DHS          Disaster Assistance      This category is not for unsolicited proposals. Provides                 97.088
              Projects                 funding that has been designated by Congressionally
                                       appropriated authorization, generally for a specified project,
                                       or to provide unique or limited scope funding for certain
                                       Disaster Assistance Projects identified by Congress or a
                                       DHS program office.
 DHS          Repetitive Flood         To assist States, Indian tribal governments, and                         97.092
              Claims                   communities to reduce or eliminate the long-term risk of
                                       flood damage to structures insured under the NFIP that have
                                       had one or more claims for flood damages through
                                       mitigation activities that are in the best interest of the
                                       National Flood Insurance Fund (NFIF).
 DHS          Fire Service             Provide information to the fire and emergency services                   97.093
              Hazardous                community, emergency managers, and other local
              Materials                government officials concerning issues related to the
              Preparedness and         planning, mitigation, prevention, and response to hazardous
              Response                 materials incidents, which includes acts of terrorism.
 DHS          Commercial               To enhance regional response capabilities, mutual aid, and               97.096
              Equipment Direct         interoperable communications by providing technology and
              Assistance               equipment, together with training and technical assistance
              Program                  required to operate that equipment, to public safety agencies
                                       in smaller jurisdictions and certain metropolitan areas to
                                       prevent, deter, and respond to terrorist attacks as identified
                                       in State homeland security strategies.
 DHS          Disaster Donations       To distribute technology solutions to State and local                    97.098
              Management               government and voluntary agencies throughout the country
              Program                  prior to a major event through the Aidmatrix
                                       Foundation/FEMA partnership. This will allow end-users to
                                       incorporate technology solutions into their planning,
                                       increasing their capacity to respond quickly and effectively
                                       once a disaster occurs.
 DHS          Disaster Housing         To provide temporary housing assistance and case                         97.109
              Assistance Grant         management for families who were displaced by Hurricanes
                                       Katrina and Rita. The Disaster Housing Assistance Program
                                       (DHAP) would be implemented in the form of a rental
                                       assistance program that would continue providing housing
                                       subsidies for families for the next 18 months after
                                       termination of FEMA’s initial temporary housing program.
 DHS          Severe Repetitive        To assist States and local governments in supporting actions             97.110
              Loss Program             that reduce or eliminate the long-term risk of flood damage
                                       to residential properties insured under the NFIP that meet
                                       the definition of severe repetitive loss property, and to
                                       reduce losses to the National Flood Insurance Fund (NFIF)
                                       by funding projects that result in the greatest savings to the
                                       NFIF in the shortest time period.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information




                                      Compendium of Disaster Assistance Programs


                                                         Page 14 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                         PURPOSE                                   CFDA
                                                                                                              NUMBER
 DHS           Regional                The goal of RCPGP is to support an integrated planning                   97.111
               Catastrophic            system that provides for regional all-hazard planning for
               Preparedness Grant      catastrophic events and the development of necessary plans,
               Program (RCPGP)         protocols, and procedures to manage a catastrophic event.
                                       Objectives include, creating regional planning processes and
                                       planning communities through the establishment of a
                                       Catastrophic Planning Working Group; Identifying and
                                       assessing priority areas of concern using both capabilities-
                                       based and scenario-based planning models; Developing
                                       enhanced regional plans and addressing shortcomings in
                                       jurisdiction plans to support both the management of a
                                       catastrophic incident and to enable enduring government;
                                       and linking planning efforts to resource allocations.
 DOC           Interjurisdiction       To assist States in managing interjurisdictional fisheries               11.407
               Fisheries Act of        resources.
               1986
 DOC           Investments for         The Public Works and Economic Development Program of                     11.300
               Public Works and        the Economic Development Administration (EDA) is
               Economic                designed to enhance regional competitiveness and promote
               Development             long-term economic development in regions experiencing
               Facilities              substantial economic distress. Through the program, EDA
                                       provides Public Works investment assistance to support the
                                       construction or rehabilitation of essential public
                                       infrastructure and facilities necessary to generate or retain
                                       long-term private sector jobs and investments, attract private
                                       sector capital, and promote regional competitiveness.
                                       Grants (referred to throughout this document as
                                       investments) may be used for projects such as expanding
                                       and upgrading infrastructure to attract new industry,
                                       supporting technology-led development, redeveloping
                                       brownfield sites, promoting eco-industrial development, and
                                       supporting heritage preservation development investments
                                       such as those promoted by the Executive Order on Preserve
                                       America.
 DOC           Coastal Zone            To assist States in implementing and enhancing Coastal                   11.419
               Management              Zone Management programs that have been approved by the
               Administration          Secretary of Commerce.
               Awards
 DOC           Automated Flood         The objective of the Automated Flood Warning Systems                     11.450
               Warning System          Program is to provide funding to communities with flood or
               (AFWS)                  flash flood problems that affect safety of life and property to
                                       assist them in creating, renovating, or enhancing AFWS.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 15 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOC           Economic                     The Economic Development Administration (EDA)                       11.302
               Development - Support        provides Planning assistance to provide support to
               for Planning                 Planning Organizations (as defined in 13 CFR 303.2)
               Organizations                for the development, implementation, revision, or
                                            replacement of a Comprehensive Economic
                                            Development Strategy, short-term planning efforts, and
                                            State plans designed to create and retain higher-skill,
                                            higher-wage jobs, particularly for the unemployed and
                                            underemployed in the Nation's most economically
                                            distressed regions. Planning activities supported by
                                            these grants (referred to throughout this document as
                                            investments) must be part of a continuous process
                                            involving the active participation of Private Sector
                                            Representatives (as defined in 13 CFR 300.3), public
                                            officials, and private citizens. In addition, they must
                                            include: (a) analysis of local economies;
                                            (b) identification of economic development goals;
                                            (c) determination of project opportunities; and
                                            (d) formulation and implementation of an economic
                                            development program that includes systematic efforts to
                                            reduce unemployment and increase incomes. Current
                                            investment priorities include applications that help
                                            develop and enhance regional industry clusters and
                                            assist local leaders in understanding and applying the
                                            principles of entrepreneurship and technological
                                            innovation. See 13 CFR 303.1 and 303.7.
 DOC           Economic                     EDA oversees three technical assistance programs                    11.303
               Development -                (National, Local and University Center) that promote
               Technical Assistance         economic development and alleviate unemployment,
                                            underemployment, and out-migration in distressed
                                            regions. These programs provide grants or cooperative
                                            agreements (referred to throughout this document as
                                            investments) to: (1) invest in institutions of higher
                                            education to establish and operate University Centers to
                                            provide technical assistance to public and private sector
                                            organizations with the goal of enhancing local economic
                                            development; (2) support innovative approaches to
                                            stimulate economic development in distressed regions;
                                            (3) disseminate information and studies of economic
                                            development issues of national significance; and
                                            (4) finance feasibility studies and other projects leading
                                            to local economic development. These programs aid the
                                            long-range economic development of regions with
                                            severe unemployment and low per capita income.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 16 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOC           Manufacturing                To establish, maintain, and support manufacturing                   11.611
               Extension Partnership        extension centers and services, the functions of which
                                            are to improve the competitiveness of firms accelerating
                                            the usage of appropriate manufacturing technology by
                                            smaller U.S. based manufacturing firms, and partner
                                            with the States in developing such technical assistance
                                            programs and services for their manufacturing base.
 DOC           Minority Business            To provide electronic and one-on-one business                       11.800
               Enterprise Centers           development services for a nominal fee to minority
                                            firms and individuals interested in entering, expanding
                                            or improving their efforts in the marketplace. The
                                            Minority Business Development Agency's funded
                                            Minority Business Enterprise Center operators provide a
                                            wide range of services to clients, from initial
                                            consultations to the identification and resolution of
                                            specific business problems.
 DOC           Economic                     To address the needs of distressed communities                      11.307
               Adjustment                   experiencing adverse economic changes that may
               Assistance                   occur suddenly or over time, and generally result
                                            from industrial or corporate restructuring, new
                                            Federal laws or requirements, reduction in defense
                                            expenditures, depletion of natural resources, or
                                            natural disaster. Economic Adjustment Assistance
                                            grants (referred to throughout this document as
                                            investments) are intended to enhance a distressed
                                            community's ability to compete economically by
                                            stimulating private investment in targeted areas.
                                            Current investment priorities include proposals
                                            that: (a) promote comprehensive, entrepreneurial,
                                            and innovation-based economic development
                                            efforts that enhance the competitiveness of regions
                                            in the global economy. The investments will be
                                            part of a long-term strategy to promote the region's
                                            success in achieving a rising standard of living by
                                            supporting existing industry clusters, developing
                                            emerging new clusters, or attracting new regional
                                            economic drivers; (b) support technology-led
                                            economic development and reflect the important
                                            role of linking universities and industry and
                                            technology transfers; and (c) advance community-
                                            and faith-based social entrepreneurship in
                                            redevelopment strategies for regions of chronic
                                            economic distress.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.



                                      Compendium of Disaster Assistance Programs


                                                         Page 17 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOC           Geodetic Surveys and         To provide national, coordinated spatial reference                  11.400
               Services (Geodesy and        system at various specified intervals which provide
               Applications of the          scale, orientation, coordinated positions, and elevations
               National Geodetic            of specific points for use in surveying, boundary
               Reference System)            delineations and demarcation, mapping, planning, and
                                            development; to provide assistance to State, local,
                                            municipal, and regional agencies in the development
                                            and implementation of Multipurpose Land Information
                                            Systems/Geographic Information Systems pilot projects
                                            and spatial reference system development and/or
                                            enhancement, and Height Modernization. For the Joint
                                            Hydrographic Center to improve the techniques and
                                            technology of hydrographic surveying, hydrographic
                                            services, and ocean mapping.
 DOC           Unallied Industry            To provide grants and cooperative agreements for                    11.452
               Projects                     biological, economic, sociological, public policy, and
                                            other research and administration projects to benefit
                                            U.S. fisheries industries and contribute to the economic
                                            and social welfare of the Nation. To award grants and
                                            cooperative agreements to develop innovative
                                            approaches and methods for ensuring the safety, quality
                                            and integrity of U.S. fishery products; also, to provide
                                            funds to the five States bordering the Gulf of Mexico,
                                            for projects or other measures designed to alleviate the
                                            long-term effects of disasters on the Gulf's fishery
                                            resources and associated habitat. To facilitate the
                                            administration, coordination and implementation of the
                                            research activities of the Cooperative Institute for
                                            Fisheries Molecular Biology (FISHTEC). The goal of
                                            FISHTEC is to develop, test, and apply new technology
                                            in molecular biology for use in management of
                                            commercial and recreational marine fisheries.
                                            Emphasis of the research program is placed on
                                            development of molecular genetics techniques to
                                            identify and evaluate the status of fish
                                            stocks/populations subject to fishing pressure and/or
                                            environmental impacts. To support the implementation
                                            of community-based demonstration projects in the U.S.
                                            western Pacific that promote the development of
                                            fishery-related industries and the economic self-
                                            sufficiency of native Pacific islanders and communities.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 18 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOC           Unallied Management          Projects provide economic, sociological, public policy,             11.454
               Projects                     and other information needed by Federal and State
                                            natural resource administrators for conserving and
                                            managing fishery resources and protected species and
                                            their environment in Federal, State, and U.S. territorial
                                            waters. Information derived from project studies may
                                            consist of econometric data, user profiles, sociological
                                            case studies, policy and systems analyses, and other
                                            knowledge, and is used in such decisions as resource
                                            allocations, total and zonal harvest determinations, and
                                            initial apportionment of harvesting rights under
                                            controlled access management regimes. Primary users
                                            of project information include the National Marine
                                            Fisheries Service, Regional Fishery Management
                                            Councils, Interstate Marine Fisheries Commissions,
                                            State, and other Federal resource management agencies.
 DOC           Habitat Conservation         To provide grants and cooperative agreements for                    11.463
                                            biological, economic, sociological, public policy, and
                                            other research, administration, and public education
                                            projects on the coastal environment to benefit U.S.
                                            fisheries, conserve protected resources, and add to the
                                            economic and social well being of the Nation. Projects
                                            are funded to carry out public policy pertaining to
                                            protection and restoration of the Nation's wetlands and
                                            other coastal habitats, pursuant to the Fish and Wildlife
                                            Coordination Act, Magnuson Fishery Conservation and
                                            Management Act, Endangered Species Act, Estuary
                                            Restoration Act, Marine Mammal Protection Act,
                                            Marine Plastic Pollution Research and Control Act of
                                            1987, Coastal Wetlands Planning Protection and
                                            Research Act, Coral Reef Conservation Act and other
                                            legislation. Research and management includes
                                            determining the effects of habitat modifications and
                                            contaminants on populations of living marine resources,
                                            restoring depleted stocks that have been adversely
                                            impacted by habitat modifications, determining if
                                            artificial or restored habitat fulfills essential habitat
                                            needs of living marine resources, and quantifying
                                            contaminants and debris that pose a hazard to
                                            populations of these animals.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 19 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOC           Coastal Services Center      To support projects aimed at developing a science-                  11.473
                                            based, multi-dimensional approach that will allow for
                                            the maintenance or improvement of environmental
                                            quality while at the same time allowing for economic
                                            growth.
 DOC           Fisheries Disaster           To deal with commercial fishery failures due to fishery             11.477
               Relief                       resource disasters. Disaster causes may be (a) natural;
                                            (b) man-made (if they are "beyond the control of
                                            fisheries managers to mitigate through conservation and
                                            management measures"); or (c) undetermined.
 DOC           Public                       To assist in the planning, acquisition, installation, and           11.550
               Telecommunications           modernization of public telecommunications facilities,
               Facilities Planning and      through planning grants and matching construction
               Construction                 grants, in order to: (a) extend delivery of public
                                            telecommunications services to as many citizens of the
                                            United States and territories as possible by the most
                                            efficient and economical means, including the use of
                                            broadcast and nonbroadcast technologies; (b) increase
                                            public telecommunications services and facilities
                                            available to, operated by and owned by minorities and
                                            women; and (c) strengthen the capability of existing
                                            public television and radio stations to provide public
                                            telecommunications service to the public.
 DOD           Beach Erosion Control        To control public beach and shore erosion to public                 12.101
               Projects                     shores through projects not specifically authorized by
                                            Congress.
 DOD           Emergency                    To assist in the repair and restoration of flood control            12.102
               Rehabilitation of Flood      works damaged by flood, or federally authorized
               Control Works or             hurricane flood and shore protection works damaged by
               Federally-Authorized         extraordinary wind, wave, or water action.
               Coastal Protection
               Works
 DOD           Emergency Operations         To provide emergency flood response and post flood                  12.103
               Flood Response and           response assistance as required to supplement State and
               Post Flood Response          local efforts and capabilities in time of flood or coastal
                                            storm.
 DOD           Flood Plain                  To promote appropriate recognition of flood hazards in              12.104
               Management Services          land and water use planning and development through
                                            the provision of flood and flood plain related data,
                                            technical services, and guidance.
 DOD           Protection, Clearing         To restore channels for purposes of navigation or flood             12.109
               and Straightening            control.
               Channels
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 20 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOD          Emergency Advance             To perform activities prior to flooding or flood fight              12.111
              Measures for Flood            that would assist in protecting against loss of life and
              Prevention                    damages to property due to flooding.
 DOD          Debris Removal                Provide debris removal services.                                       *



 DOD          Pharmaceuticals               Purchase of time critical pharmaceuticals and medical                  *
                                            supplies.

 DOD          Roofing                       Install temporary roofs on homes to allow occupation by                *
                                            owners/residents and relieve the need to provide
                                            temporary housing.
 DOI          Indian Housing                To use the Housing Improvement Program (HIP)                        15.141
              Assistance                    resources of the Bureau of Indian Affairs to eliminate
                                            substantially substandard Indian owned and inhabited
                                            housing for very low income eligible Indians living in
                                            approved tribal service areas. This effort is assisted by
                                            the Indian Health Service (Department of Health and
                                            Human Services), which provides water and sanitary
                                            systems for houses repaired or built with HIP funds.
 DOI          Wildlife Restoration          The Pittman-Robertson Wildlife Restoration Act of 1937              15.611
                                            provides funding for the selection, restoration,
                                            rehabilitation, and improvement of wildlife habitat;
                                            wildlife management research; wildlife population
                                            surveys and inventories; land acquisition, coordination;
                                            development of facilities; facilities and services for
                                            conducting a hunter education and safety program; and
                                            provisions for public use of wildlife resources. Some
                                            eligible activities include planting food plots for
                                            wildlife; posting boundaries on wildlife management
                                            areas; building roads and trails; controlling noxious
                                            vegetation; and providing public access to wildlife-
                                            related recreation opportunities. Section 4(c) Hunter
                                            Education program could include training in the safe
                                            handling and use of firearms and archery equipment;
                                            hunter responsibilities and ethics; construction,
                                            operation, and maintenance of public shooting ranges;
                                            and basic wildlife management and identification.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information
* No CFDA number identified




                                      Compendium of Disaster Assistance Programs


                                                         Page 21 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOI          Coastal Wetlands              To provide competitive matching grants to coastal                   15.614
              Planning, Protection          States for coastal wetlands conservation projects. The
              and Restoration Act           Coastal Wetlands Planning, Protection, and Restoration
                                            Act (Section 305, Title III, Public Law 101-646 U.S.C.
                                            3954) established the National Coastal Wetlands
                                            Conservation Grant Program to acquire, restore, and
                                            enhance wetlands in coastal States.
 DOI          Cooperative                   To provide Federal financial assistance to any State or             15.615
              Endangered Species            Territory (hereafter, "States"), through its appropriate
              Conservation Fund             State or territorial agency, to assist in the development
                                            of programs for the conservation of endangered and
                                            threatened species.
 DOI          Partners for Fish and         Provide technical and financial assistance to private               15.631
              Wildlife                      landowners and Native American Tribes interested in
                                            voluntarily restoring or otherwise improving native
                                            habitats for fish and wildlife on their lands.
 DOI           Conservation Grants          To provide Federal financial and other assistance to                15.632
               Private Stewardship          individuals and groups engaged in local, private, and
               for Imperiled Species        voluntary conservation efforts to be carried out on
                                            private lands that benefit species listed or proposed as
                                            endangered or threatened under the U.S. Endangered
                                            Species Act, candidate species, or other at-risk species.
 DOI          Earthquake Hazards            To support earthquake hazards research in order to                  15.807
              Reduction Program             develop information, knowledge, and methods relevant
                                            to the major Earthquake Hazards Program elements:
                                            national and regional earthquake hazards assessments;
                                            research related to earthquake information, monitoring,
                                            and notification; research on earthquake occurrence,
                                            physics, and effects; and earthquake safety policy.
                                            Specific objectives and research tasks identified as
                                            measures of progress towards the goals of these
                                            program elements are described in greater detail in the
                                            Research Priorities section of the annual Program
                                            Announcement.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information




                                      Compendium of Disaster Assistance Programs

                                                         Page 22
Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOI           Historic Preservation        To provide matching grants to States for the                        15.904
               Fund Grants-in-Aid           identification, evaluation, and protection of historic
                                            properties by such means as survey, planning technical
                                            assistance, acquisition, development, and certain
                                            Federal tax incentives available for historic properties;
                                            to provide matching grants to States to expand the
                                            National Register of Historic Places, (the Nation's
                                            listing of districts, sites, buildings, structures, and
                                            objects significant in American history, architecture,
                                            archaeology, engineering and culture at the National,
                                            State and local levels) to assist Federal, State, and Local
                                            Government agencies, nonprofit organizations and
                                            private individuals in carrying out historic preservation
                                            activities; and to provide grants to Indian Tribes and
                                            Alaskan Native Corporations to preserve their culture.
 DOI           National Register of         To expand and maintain the National Register of                     15.914
               Historic Places              Historic Places for planning, preservation, research,
                                            public education and tourism efforts; to make the
                                            information on districts, sites, buildings, structures and
                                            objects of historical, architectural, archeological,
                                            engineering and cultural significance more accessible to
                                            the public in order to increase and broaden the public's
                                            understanding of the information, foster a national
                                            preservation ethic, and to promote greater appreciation
                                            of America's heritage; to coordinate with Federal
                                            agencies, State and Tribal preservation offices, and the
                                            Advisory Council on Historic Preservation in the
                                            implementation of laws and policies pertaining to
                                            historic preservation; and to establish liaison with and
                                            give guidance to communities under Title I of the
                                            Housing and Community Development Act of 1974 (see
                                            14.218).
 DOI           Outdoor Recreation-          To provide financial assistance to the States and their             15.916
               Acquisition,                 political subdivisions for the preparation of Statewide
               Development and              Comprehensive Outdoor Recreation Plans and
               Planning                     acquisition and development of outdoor recreation areas
                                            and facilities for the general public, to meet current and
                                            future needs.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                       Compendium of Disaster Assistance Programs

                                                         Page 23
Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOJ           Missing Children's           To coordinate Federal missing and exploited children                16.543
               Assistance                   activities and to support research, training, technical
                                            assistance, and demonstration programs to enhance the
                                            overall response to missing children and their families.
                                            Establish and maintain a national resource center and
                                            clearinghouse dedicated to missing and exploited
                                            children issues that: (1) provides a toll-free hotline
                                            where citizens can report investigative leads and parents
                                            and other interested individuals can receive information
                                            concerning missing children; (2) provides technical
                                            assistance to parents, law enforcement, and other
                                            professionals working on missing and exploited children
                                            cases; (3) promotes information sharing and provides
                                            technical assistance by networking with regional
                                            nonprofit organizations, State missing children
                                            clearinghouses, and law enforcement agencies;
                                            (4) develops publications that contain practical, timely
                                            information; and (5) provides information regarding
                                            programs offering free or low-cost transportation
                                            services that assist in reuniting children with their
                                            families. On a periodic basis, as funding is designated
                                            by Congress for this purpose, conduct national
                                            incidence studies to determine the type and extent of
                                            missing children in America. Support law enforcement
                                            demonstration programs (e.g., the Internet Crimes
                                            Against Children Task Force Program) to enhance the
                                            investigative response to missing and exploited children
                                            cases. Support research to broaden understanding of a
                                            wide range of missing and exploited children issues
                                            (e.g., abduction homicide investigation solvability
                                            factors), to inform training and technical assistance
                                            efforts and to identify promising practices and programs
                                            for replication. Develop training programs for law
                                            enforcement, child protective services, medical
                                            personnel, and prosecutors to enhance coordination and
                                            effectiveness of missing and exploited children
                                            investigations and to enhance the overall system
                                            response. Identify service gaps and develop programs
                                            to meet specialized needs of parents or guardians of
                                            children who are reported missing.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 24 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOJ           Community Relations          To provide free Federal conciliation and mediation                  16.200
               Service                      services to communities in preventing and resolving
                                            community tensions, conflicts, and civil disorders
                                            arising from actions, policies, and practices that are
                                            perceived to be based on race, ethnicity, or national
                                            origin. No funds are granted to outside organizations to
                                            provide these services.
 DOJ           Part E - Developing,         To develop and implement programs that design, test,                16.541
               Testing and                  and demonstrate effective approaches, techniques and
               Demonstrating                methods for preventing and controlling juvenile
               Promising New                delinquency such as community based- alternatives to
               Programs                     institutional confinement; developing and implementing
                                            effective means of diverting juveniles from the
                                            traditional juvenile justice system; programs stressing
                                            advocacy activities aimed at improving services to
                                            youth impacted by the juvenile justice system; model
                                            programs to strengthen and maintain the family unit
                                            including self-help programs; prevention and treatment
                                            programs relating to juveniles who commit serious
                                            crimes; programs to prevent hate crimes; programs to
                                            provide aftercare and reintegration services; programs to
                                            prevent youth gun and gang violence.
 DOJ           Public Safety Officers'      To provide a $275,658 death benefit (FY 2005) to the                16.571
               Benefits Program             eligible survivors of Federal, State or local public safety
                                            officers whose death is the direct and proximate result
                                            of a personal (traumatic) injury sustained in the line of
                                            duty. Effective November 29, 1990, the Public Safety
                                            Officers' Benefits Act also provides the same benefit to a
                                            public safety officer who has been permanently and
                                            totally disabled as the direct result of a catastrophic
                                            personal injury sustained in the line of duty. The injury
                                            must permanently prevent the officer from performing
                                            any gainful work.
 DOJ           Community Capacity           The Program's objective is national implementation of               16.595
               Development Office           Operation Weed and Seed. Operation Weed and Seed is
                                            a comprehensive, multi-disciplinary approach to
                                            combating violent crime, drug use, and gang activity in
                                            high crime neighborhoods. The goal is to "weed out"
                                            violence and drug activity in high crime neighborhoods
                                            and then to "seed" the sites with a wide range of crime
                                            and drug prevention programs, human service resources,
                                            and neighborhood restoration activities to prevent crime
                                            from reoccurring. The strategy emphasizes the
                                            importance of a coordinated approach, bringing together
                                            Federal, State and local government, the community,
                                            and the private sector to form a partnership to create a
                                            safe, drug-free environment.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.

                                      Compendium of Disaster Assistance Programs


                                                         Page 25 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOJ           Edward Byrne                 To provide States and units of local government with             16.738
               Memorial Justice             funds to provide additional personnel, equipment,
               Assistance Grant             supplies, contractual support, training, technical
               Program                      assistance, and information systems for criminal justice.
 DOJ           Police Athletic League       PAL is a youth crime prevention program that utilizes                  *
               (PAL)                        educational, athletic and recreational activities to create
                                            trust and understanding between police officers and
                                            youth.
 DOJ           Juvenile Justice and         To increase the capacity of State and local governments             16.540
               Delinquency                  to support the development of more effective education,
               Prevention-Allocation        training, research, prevention, diversion, treatment,
               to States                    accountability based sanctions, and rehabilitation
                                            programs in the area of juvenile delinquency and
                                            programs to improve the juvenile justice system.
 DOJ           Juvenile Accountability      To provide States and units of local government with                16.523
               Block Grant (JABG)           funds to develop programs to strengthen and promote
                                            greater accountability in the juvenile justice system. To
                                            survey the field and identify projects that would benefit
                                            from research, demonstration, and evaluation in the 16
                                            purpose areas identified in the JABG Program. To
                                            provide training and technical assistance to States and
                                            units of local government so they may develop
                                            programs outlined in the 16 program areas to promote
                                            greater accountability in the juvenile justice system.


Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified.




                                      Compendium of Disaster Assistance Programs

                                                         Page 26
Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOJ           National Criminal            To enhance the quality and completeness of the Nation's             16.554
               History Improvement          criminal history record systems; to provide financial and
               Program (NCHIP)              technical assistance to States for the establishment or
                                            improvement of computerized criminal history record
                                            systems and in their efforts to collect data on stalking
                                            and domestic violence; to improve data accessibility and
                                            support data transmissions to national systems will
                                            permit the immediate identification of persons who are
                                            prohibited from purchasing firearms, are subject to
                                            domestic violence protective orders, or are ineligible to
                                            hold positions of responsibility involving children, the
                                            elderly, or the disabled; to support the development of
                                            accurate and complete State sex offender identification
                                            and registration systems which interface with the FBI's
                                            Sex Offender Registry and meet applicable Federal and
                                            State requirements; to develop and improve the
                                            processes for identifying, classifying, collecting, and
                                            entering data regarding stalking and domestic violence
                                            into local, State, and national crime information
                                            databases; to ensure that criminal justice systems are
                                            designed, implemented, or upgraded to be compliant
                                            where applicable, with the FBI operated National
                                            Instant Criminal Background Check System and
                                            Interstate Automated Fingerprint Identification System,
                                            meet other applicable statewide or regional criminal
                                            justice information sharing standards and plans; and,
                                            build upon ongoing efforts so as to support the wide
                                            range of technology based, criminal justice information,
                                            identification, and communications needs identified by
                                            the States.
 DOL           Unemployment                 To administer a program of unemployment insurance                   17.225
               Insurance                    for eligible workers through Federal and State
                                            cooperation; to administer payment of trade adjustment
                                            assistance, disaster unemployment assistance,
                                            unemployment compensation for Federal employees
                                            and ex-service members.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs

                                                         Page 27
Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 DOL           WIA Dislocated               The purpose of the program is to reemploy dislocated                17.260
               Workers                      workers, improve the quality of the workforce, and
                                            enhance the productivity and competitiveness of the
                                            Nation's economy by providing workforce investment
                                            activities that increase the employment, retention, and
                                            earnings of participants, and increase occupational skill
                                            attainment by the participants. This program is
                                            designed to increase employment, as measured by entry
                                            into unsubsidized employment, retention in
                                            unsubsidized employment after entry into employment,
                                            and extent of recovery of prior earnings. For cross
                                            cutting goals, the program intends to enhance customer
                                            satisfaction for participants and for employers. The
                                            employment goals will be measured using
                                            Unemployment Insurance Wage Records systems and
                                            customer satisfaction goals will be measured by
                                            sampling.
 DOT           Airport Improvement          To assist sponsors, owners, or operators of public-use              20.106
               Program (AIP)                airports in the development of a nationwide system of
                                            airports adequate to meet the needs of civil aeronautics.
 DOT           Highway Planning and         Federal-aid Highway Program: To assist State                        20.205
               Construction                 transportation agencies in the planning and development
                                            of an integrated, interconnected transportation system
                                            important to interstate commerce and travel by
                                            constructing and rehabilitating the National Highway
                                            System, including the Eisenhower Interstate System;
                                            and for transportation improvements to most other
                                            public roads; to provide aid for the repair of Federal-aid
                                            highways following disasters; to foster safe highway
                                            design; to replace or rehabilitate deficient or obsolete
                                            bridges; and to provide for other special purposes. This
                                            program also provides for the improvement of roads in
                                            Puerto Rico, Guam, the U.S. Virgin Islands, American
                                            Samoa, the Northern Mariana Islands, and the Alaska
                                            Highway. The Federal Lands Highway Program, as an
                                            adjunct to the Federal Aid Highway Program, provides
                                            assistance to the Federal Land Management Agencies
                                            for Federally owned roads. It provides transportation
                                            engineering services for planning, design, construction,
                                            and rehabilitation of the highways and bridges
                                            providing access to federally owned lands. The Federal
                                            Lands Highway organization also provides training,
                                            technology, deployment, engineering services, and
                                            products to other customers.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 28 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 ED            Charter Schools              The program supports the planning, development, and                 84.282
                                            initial implementation of charter schools and the
                                            dissemination of information on charter schools.
                                            Charter schools provide enhanced parental choice and
                                            are exempt from many statutory and regulatory
                                            requirements. In exchange for this increased flexibility,
                                            charter schools establish plans to improve student
                                            academic achievement and to stimulate the creativity
                                            and commitment of teachers, parents, and the public.
 ED            Federal Supplemental         To provide eligible undergraduate postsecondary                     84.007
               Educational                  students with demonstrated financial need with grant
               Opportunity Grants           assistance to help meet educational expenses.
 ED            Leveraging Educational       To provide grants to the States for use in programs of              84.069
               Assistance Partnership       financial assistance to eligible postsecondary students.

 ED            Fund for the                 To provide assistance for innovative programs that                  84.116
               Improvement of               improve access to and the quality of postsecondary
               Postsecondary                education.
               Education
 ED            Federal Real Property        To convey surplus Federal Real Property for                         84.145
               Assistance Program           educational purposes at fair market value.
 ED            Safe and Drug-Free           To enhance the Nation's efforts to prevent the illegal use          84.184
               Schools And                  of drugs and violence among, and promote safety and
               Communities National         discipline for, students at all educational levels; and to
               Programs                     support mentoring programs for at-risk children.
 ED            Hurricane Education          To assist in meeting the educational needs of individuals           84.938
               Recovery                     and educational institutions affected by hurricanes in the
                                            Gulf of Mexico in calendar year 2005.
 ED            Hurricane Education          The Emergency Supplemental Appropriations Act for                      *
               Recovery Awards              Defense, The Global War on Terror, and Hurricane
                                            Recovery of 2006 provides grants to assist institutions of
                                            higher education that suffered losses as a result of
                                            hurricanes in calendar year 2005. Grants awarded may
                                            only be used to help defray expenses incurred by
                                            institutions of higher education that were forced to
                                            close, relocate, or significantly curtail their activities as
                                            a result of damage directly caused by such hurricanes.
                                            These expenses may include lost revenue,
                                            reimbursement for expenses already incurred, and
                                            construction associated with the hurricanes in the Gulf
                                            of Mexico in 2005. Additional information can be
                                            found at
                                            http://ifap.ed.gov/eannouncements/katrina.html.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified.



                                      Compendium of Disaster Assistance Programs


                                                         Page 29 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 ED            Surplus Property              For computer donations, Executive Order 12999                         *
               Program                       encourages agencies, to the extent permitted by law, to
                                             transfer computers and related peripheral equipment
                                             excess to their needs directly to schools and some
                                             educational nonprofit organizations. The Computers for
                                             Learning program specifically matches the computer
                                             needs of schools and educational nonprofit
                                             organizations with excess equipment in Federal
                                             agencies. For further information --
                                             http://computersforlearning.gov.
 EPA                                         EPA has various programs, which can be used to                        *
                                             respond to environmental conditions caused by
                                             disasters.
 FDIC          Regulatory Relief for         To provide regulatory assistance to insured institutions,             *
               Federally Insured             including bank/thrift holding companies and their
               Financial Institutions        subsidiaries, to meet the needs of their customers in
                                             facilitating recovery following major disasters.
 GSA           Disposal of Federal           To dispose of surplus real property by lease, permits,             39.002
               Surplus Real Property         sale, exchange, or donation.

 GSA           Donation of Federal           To donate Federal personal property no longer required             39.003
               Surplus Personal              for Federal use to public agencies and qualifying
               Property                      nonprofit entities in order to reduce the cost of State and
                                             local government.
 HHS           Public Health And             To provide supplemental funding for public health and              93.003
               Social Services               social service emergencies.
               Emergency Fund
 HHS           Special Programs for          To encourage State Agencies on Aging and Area                      93.044
               the Aging - Title III,        Agencies on Aging to concentrate resources to develop
               Part B - Grants for           and implement comprehensive and coordinated
               Supportive Services           community-based systems of service for older
               and Senior Centers            individuals via Statewide planning, and area planning
                                             and provision of supportive services, including
                                             multipurpose senior centers. The objective of these
                                             services and centers is to maximize the informal support
                                             provided to older Americans to enable them to remain
                                             in their homes and communities. Providing
                                             transportation services, in-home services, and caregiver
                                             support services, this program insures that elders receive
                                             the services they need to remain independent.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified.




                                        Compendium of Disaster Assistance Programs


                                                         Page 30 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HHS           Special Programs for         To support the development and testing of innovative                93.048
               the Aging - Title IV         programs, services and systems of support that respond
               and Title II -               to the needs of the Nation’s growing elderly population,
               Discretionary Projects       to improve knowledge of the problems and needs of the
                                            elderly, to help ensure adequately trained personnel in
                                            the field of aging, and to demonstrate better ways of
                                            improving the quality of life for the elderly.
 HHS           NIEHS Hazardous              To provide cooperative agreements and project grant                 93.142
               Waste Worker Health          support for the development and administration of
               and Safety Training          model worker health and safety training programs
                                            consisting of classroom and practical health and safety
                                            training of workers and their supervisors, who are
                                            engaged in activities related to hazardous materials,
                                            hazardous waste generation, treatment, storage,
                                            disposal, removal, containment, transportation, or
                                            emergency response. To assist organizations in the
                                            development of institutional competency to provide
                                            appropriate training and education to hazardous waste
                                            workers.
 HHS           Coordinated Services         The purpose of this funding is providing family-                    93.153
               and Access to Research       centered care involving outpatient or ambulatory care
               for Women, Infants,          (directly or through contracts) to women, infants,
               Children and Youth           children, and youth with HIV/AIDS, and may be used to
                                            provide additional support services to patients and
                                            families and family members through the provision of
                                            coordinated, comprehensive, culturally and
                                            linguistically competent, family-centered services.
                                            Funds will be used to support programs that provide
                                            primary medical care and: (1) Link established systems
                                            of care to coordinate service delivery and ensure that
                                            HIV-infected women, infants, children, and youth have
                                            access to the existing and emerging HIV treatments that
                                            can make a difference; (2) Implement HIV prevention
                                            programs for the transmission of HIV from mother to
                                            child; (3) Educate clients about the opportunities for
                                            participation in clinical research and other research
                                            activities; and (4) Address the intensity of service needs,
                                            high costs, and other complex barriers to comprehensive
                                            care and research experienced by medically underserved
                                            and challenging populations.
 HHS           Health Program for           To work closely with State, local, and other Federal                93.161
               Toxic Substances and         agencies to reduce or eliminate illness, disability, and
               Disease Registry             death resulting from exposure of the public and workers
                                            to toxic substances at spill and waste disposal sites.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 31 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HHS           Consolidated Health          To improve the health of the Nation's underserved                   93.224
               Centers (Community           communities and vulnerable populations by assuring
               Health Centers,              access to comprehensive, culturally competent, quality
               Migrant Health               primary health care services. Individual health center
               Centers, Health Care         grant mechanisms include: (1) Community Health
               for the Homeless,            Centers; (2) Migrant Health Centers; (3) Health Care for
               Public Housing               the Homeless; and (4) Public Housing Primary Care
               Primary Care, and            Program.
               School Based Health
               Centers)
 HHS           Healthy Communities          To provide assistance to communities and consortia of               93.252
               Access Program               health care providers and others to develop or
                                            strengthen integrated community health care delivery
                                            systems that coordinate health care services for
                                            individuals who are uninsured or underinsured, and to
                                            develop or strengthen activities related to providing
                                            coordinated care for individuals with chronic conditions
                                            who are uninsured or underinsured.
 HHS           Centers for Disease          To assist State and local health authorities and other              93.283
               Control and Prevention       health related organizations in controlling
               Investigations and           communicable diseases, chronic diseases and disorders,
               Technical Assistance         and other preventable health conditions. Investigations
                                            and evaluation of all methods of controlling or
                                            preventing disease and disability are carried out by
                                            providing epidemic aid, surveillance, technical
                                            assistance, consultation, and program support; and by
                                            providing leadership and coordination of joint national,
                                            State, and local efforts. STEPS - To enable
                                            communities to reduce the burden of chronic disease,
                                            including: preventing diabetes among populations with
                                            pre-diabetes; increasing the likelihood that persons with
                                            undiagnosed diabetes are diagnosed; reducing
                                            complications of diabetes; preventing overweight and
                                            obesity; reducing overweight and obesity; and reducing
                                            the complications of asthma. STEPS will achieve these
                                            outcomes by improving nutrition; increasing physical
                                            activity; preventing tobacco use and exposure, targeting
                                            adults who are diabetic or who live with persons with
                                            asthma; increasing tobacco cessation, targeting adults
                                            who are diabetic or who live with persons with asthma;
                                            increasing use of appropriate health care services;
                                            improving the quality of care; and increasing effective
                                            self-management of chronic diseases and associated risk
                                            factors.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 32 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HHS          Surplus Property for          Convey or lease all surplus Federal real properties,                93.291
              Utilization                   made available by the disposal agency, which are
                                            needed and usable by eligible organizations and
                                            institutions to carry out health programs.
 HHS          Nurse Education,              Grants are awarded to eligible applicant organizations              93.359
              Practice and Retention        for projects to strengthen and enhance the capacity for
              Program                       nurse education, practice and retention to address the
                                            nursing shortage. There are three major priority areas
                                            (Education, Practice and Retention) and nine purposes
                                            associated with the three priority areas. Applicants
                                            must select and focus on one of these nine purposes in
                                            the grant application. The education priority areas are:
                                            Purpose E1) expanding enrollment in baccalaureate
                                            nursing programs; Purpose E2) developing and
                                            implementing internship and residency programs to
                                            encourage mentoring and the development of
                                            specialties; Purpose E3) providing education in new
                                            technologies, including distance learning
                                            methodologies. The practice priority areas are: Purpose
                                            P1) establishing or expanding nursing practice
                                            arrangements in non-institutional settings to
                                            demonstrate methods to improve access to primary
                                            health care in medically underserved communities;
                                            Purpose P2) providing care for underserved populations
                                            and other high-risk groups such as the elderly,
                                            individuals with HIV/AIDS, substance abusers, the
                                            homeless, and victims of domestic violence; Purpose
                                            P3) providing managed care, quality improvement, and
                                            other skills needed to practice in existing and emerging
                                            organized health care systems; Purpose P4) developing
                                            cultural competencies among nurses. The retention
                                            priority areas are: Purpose R1) career ladder bridge
                                            programs which promote career advancement for
                                            nursing personnel and registered nurses and; Purpose
                                            R2) enhancing patient care delivery systems through
                                            improving the retention of nurses and enhancing patient
                                            care.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information




                                      Compendium of Disaster Assistance Programs

                                                         Page 33
Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HHS           Temporary Assistance         To provide grants to States, Territories, the District of           93.558
               for Needy Families           Columbia and federally recognized Indian Tribes
                                            operating their own Tribal Temporary Assistance for
                                            Needy Families programs to assist needy families with
                                            children so that children can be cared for in their own
                                            homes; to reduce dependency by promoting job
                                            preparation, work, and marriage; to reduce and prevent
                                            out-of-wedlock pregnancies; and to encourage the
                                            formation and maintenance of two-parent families.
 HHS           Refugee and Entrant          To reimburse States for assistance provided to refugees,            93.566
               Assistance - State           asylees, Cuban and Haitian entrants, victims of a severe
               Administered Programs        form of trafficking, certain Amerasians from Viet Nam,
                                            and Iraqi and Afghan Special Immigrant Visa Holders
                                            (SIVs) for resettlement by funding cash assistance,
                                            medical assistance, and social services for the eligible
                                            population. State agencies may purchase training and
                                            services from other providers. Refugees in the U.S. may
                                            be assisted regardless of national origin.
 HHS           Low Income Home              To make Low Income Home Energy Assistance                           93.568
               Energy Assistance            Program (LIHEAP) grants available to States and other
                                            jurisdictions to assist eligible households to meet the
                                            costs of home energy. Supplemental Leveraging
                                            Incentive Funds may be awarded to reward States and
                                            other jurisdictions that provide additional benefits and
                                            services to LIHEAP-eligible households beyond what
                                            could be provided with Federal funds. Up to 25% of the
                                            leveraging incentive funds may be set aside for LIHEAP
                                            grantees that provide services through community-based
                                            nonprofit organizations to help LIHEAP-eligible
                                            households reduce their energy vulnerability under the
                                            Residential Energy Assistance Challenge Program.
                                            Training and Technical Assistance: To provide training
                                            and technical assistance to States and other jurisdictions
                                            administering the LIHEAP block grant program.
 HHS           Refugee and Entrant          To provide funding for employment-related and other                 93.584
               Assistance - Targeted        social services for refugees, asylees, Amerasians,
               Assistance Grants            victims of a severe form of trafficking, and entrants in
                                            areas of high refugee concentration and high welfare
                                            utilization.
 HHS           Community Services           To support program activities to alleviate the causes of            93.570
               Block Grant                  poverty in distressed communities which: (1) assist
               Discretionary Awards         businesses in creating jobs for low-income individuals,
                                            i.e., develop employment and business development
                                            opportunities for low-income individuals; (2) a better
                                            standard of living for rural low-income individuals in
                                            terms of water and waste water treatment.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.



                                      Compendium of Disaster Assistance Programs


                                                         Page 34 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HHS          Community Services            To provide assistance to States and local communities,              93.569
              Block Grant                   working through a network of community action
                                            agencies and other neighborhood-based organizations,
                                            for the reduction of poverty, the revitalization of low-
                                            income communities, and the empowerment of low-
                                            income families and individuals in rural and urban
                                            areas to become fully self-sufficient (particularly
                                            families who are attempting to transition off a State
                                            program carried out under part A of title IV of the
                                            Social Security Act), and (1) To provide services and
                                            activities having a measurable and potential major
                                            impact on causes of poverty in the community or those
                                            areas of the community where poverty is a particularly
                                            acute problem; (2) to provide activities designed to
                                            assist low-income participants, including the elderly
                                            poor, to: (a) secure and retain meaningful employment;
                                            (b) attain an adequate education;
                                            (c) make better use of available income; (d) obtain and
                                            maintain adequate housing and a suitable living
                                            environment; (e) obtain emergency assistance through
                                            loans or grants to meet immediate and urgent individual
                                            and family needs, including health services, nutritious
                                            food, housing, and employment-related assistance; (f)
                                            remove obstacles and solve problems which block the
                                            achievement of self-sufficiency;
                                            (g) achieve greater participation in the affairs of the
                                            community; and (h) make more effective use of
                                            other related programs; (3) to provide on an emergency
                                            basis for the provision of such supplies and services,
                                            nutritious foodstuffs, and related services, as may be
                                            necessary to counteract conditions of starvation and
                                            malnutrition among the poor; and (4) to coordinate and
                                            establish linkages between governmental and other
                                            social services programs to assure the effective delivery
                                            of such services to low-income individuals.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information




                                      Compendium of Disaster Assistance Programs

                                                         Page 35
Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HHS           Child Care and               To make grants to States, Territories, Tribes, and tribal           93.575
               Development Block            organizations for child care assistance for low-income
               Grant                        families and to: (1) allow each State maximum
                                            flexibility in developing child care programs and
                                            policies that best suit the needs of children and parents
                                            within such State; (2) promote parental choice to
                                            empower working parents to make their own decisions
                                            on the child care that best suits their family's needs;
                                            (3) encourage States to provide consumer education
                                            information to help parents make informed choices
                                            about child care; (4) assist States to provide child care
                                            to parents trying to achieve independence from public
                                            assistance; and (5) assist States in implementing the
                                            health, safety, licensing, and registration standards
                                            established in State regulations.
 HHS           Child Care Mandatory         To make grants to States, Tribes, and tribal                        93.596
               and Matching Funds of        organizations for child care assistance for low-income
               the Child Care and           families and to: (1) allow each State maximum
               Development Fund             flexibility in developing child care programs and
                                            policies that best suit the needs of children and parents
                                            within such State; (2) promote parental choice to
                                            empower working parents to make their own decisions
                                            on the child care that best suits their family's needs;
                                            (3) encourage States to provide consumer education
                                            information to help parents make informed choices
                                            about child care; (4) assist States to provide child care to
                                            parents trying to achieve independence from public
                                            assistance; and (5) assist States in implementing the
                                            health, safety, licensing, and registration standards
                                            established in State regulations.
 HHS           Head Start                   To promote school readiness by enhancing the social                 93.600
                                            and cognitive development of low-income children,
                                            including children on federally recognized reservations
                                            and children of migratory farm workers, through the
                                            provision of comprehensive health, educational,
                                            nutritional, social and other services; and to involve
                                            parents in their children's learning and to help parents
                                            make progress toward their educational, literacy and
                                            employment goals. Head Start also emphasizes the
                                            significant involvement of parents in the administration
                                            of their local Head Start programs.
 HHS           National Bioterrorism        To ready hospitals and supporting health care systems to            93.889
               Hospital Preparedness        deliver coordinated and effective care to victims of
               Program                      terrorism and other public health emergencies.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 36 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HHS           Rural Health Care            To expand access to, coordinate, restrain the cost of, and          93.912
               Services Outreach and        improve the quality of essential health services,
               Rural Health Network         including preventive and emergency services, through
               Development Program          the development of integrated health care delivery
                                            systems or networks in rural areas and frontier regions.
 HHS           HIV Care Formula             To enable States to improve the quality, availability, and          93.917
               Grants                       organization of health care and support services for
                                            individuals and families with HIV disease.
 HHS           Social Services Block        To enable each State to furnish social services best                93.667
               Grant                        suited to the needs of the individuals residing in the
                                            State. Federal block grant funds may be used to provide
                                            services directed toward one of the following five goals
                                            specified in the law: (1) to prevent, reduce, or eliminate
                                            dependency; (2) to achieve or maintain self-sufficiency;
                                            (3) to prevent neglect, abuse, or exploitation of children
                                            and adults; (4) to prevent or reduce inappropriate
                                            institutional care; and (5) to secure admission or referral
                                            for institutional care when other forms of care are not
                                            appropriate. Etc.
 HHS           Hurricane Katrina            To provide additional Federal payments under Katrina                93.776
               Relief                       hurricane-related multi-State Section 1115
                                            Demonstrations to reimburse affected States for the
                                            nonfederal share of specified medical care hurricane-
                                            related expenditures and associated administrative costs,
                                            and the total uncompensated care costs for affected
                                            States. Also, with respect to Katrina hurricane-related
                                            affected counties or parishes in Alabama, Louisiana and
                                            Mississippi, to provide the nonfederal share of medical
                                            care expenditures furnished to Title XIX and Title XXI
                                            individuals under existing State plans. In addition, if
                                            approved by the Secretary, funds may be used by the
                                            State to restore access to health care in Katrina impacted
                                            communities.
 HHS           HIV Emergency Relief         To provide direct financial assistance to eligible                  93.914
               Project Grants               metropolitan areas and Transitional Grant Areas that
                                            have been the most severely affected by the HIV
                                            epidemic to develop, organize and operate programs
                                            that provide an effective, appropriate and cost efficient
                                            continuum of health care and support services for the
                                            individuals and families with HIV disease.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 37 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HHS          Grants to Provide             To increase the capacity of entities that provide                   93.918
              Outpatient Early              comprehensive primary care services to persons with
              Intervention Services         HIV infection, or who are at-risk of infection, and to
              with Respect to HIV           offer more early intervention services. The services will
              Disease                       include increased counseling and testing, partner
                                            involvement in risk reduction, transmission prevention,
                                            appropriate primary care diagnostic and treatment
                                            services, and, as needed, case-management to ensure
                                            that individual service needs are met. A capacity
                                            development program provides assistance to
                                            organizations wishing to develop an expanded HIV
                                            program, particularly in rural and underserved areas and
                                            communities of color.
 HHS          Mental Health Disaster        To provide supplemental emergency mental health                     93.982
              Assistance and                counseling to individuals affected by major disasters,
              Emergency Mental              including the training of workers to provide such
              Health                        counseling.
 HHS          Maternal and Child            To enable States to maintain and strengthen their                   93.994
              Health Services Block         leadership in planning, promoting, coordinating and
              Grant to the States           evaluating health care for pregnant women, mothers,
                                            infants, and children and children with special health
                                            care needs in providing health services for mothers and
                                            children who do not have access to adequate health care
 HHS          BPHC Health Center            Hurricane relief.                                                      *
              Facility Development
              Business Consulting
 HHS          Emergency Systems for         Solicit volunteers to respond to the aftermath of                      *
              Advance Registration          hurricanes Katrina and Rita.
              of Volunteer Health
              Professions
 HHS          IHS Emergency                 Preparedness, Response & Recovery.                                     *
              Services - Technical
              Assistance and
              Equipment Loans -
              Tribal Emergencies
 HHS          National Disaster             To reimburse hospitals participating in the NDMS for                   *
              Medical System                authorized inpatient treatment provided to patients
              (NDMS) Hospital               evacuated by NDMS. This is done to ensure hospital
              Reimbursement                 participation in the NDMS network. Practitioners
              Program                       furnishing care within such institutions are also
                                            reimbursed.
 HHS          National Practitioner         Assist with querying the Data Banks in relation to                     *
              Data Bank/ Healthcare         displaced practitioners re-locating due to Hurricane
              Integrity and Protection      Katrina.
              Data Bank
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information
* No CFDA number identified.



                                      Compendium of Disaster Assistance Programs


                                                         Page 38 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HHS           Technical Assistance to      Designate or redesignate underserved areas.                            *
               State Health
               Requirements and
               Doctors, Shortage
               Designation Branch
 HUD           Mortgage Insurance -         To help people undertake home ownership.                            14.117
               Homes

 HUD           Mortgage Insurance ­         To help victims of a major disaster undertake                       14.119
               Homes for Disaster           homeownership on a sound basis.
               Victims
 HUD           Mortgage Insurance --        To make possible the financing of construction or                   14.127
               Manufactured Home            rehabilitation of manufactured home parks.
               Parks
 HUD           Community                    To develop viable urban communities, by providing                   14.218
               Development Block            decent housing and a suitable living environment, and
               Grants/Entitlement           by expanding economic opportunities, principally for
               Grants                       persons of low and moderate income.
 HUD           Community                    The primary objective of this program is the                        14.228
               Development Block            development of viable urban communities by providing
               Grants/State's Program       decent housing, a suitable living environment, and
               and Non-Entitlement          expanding economic opportunities, principally for
               Grants in Hawaii             persons of low and moderate income. Each activity
                                            funded must meet one of the program's National
                                            Objectives by: Benefiting low and moderate income
                                            families; aiding in the prevention or elimination of
                                            slums or blight; or meeting other community
                                            development needs having a particular urgency because
                                            existing conditions pose a serious and immediate threat
                                            to the health or welfare of the community where other
                                            financial resources are not available.
 HUD           Home Investment              (1) To expand the supply of affordable housing,                     14.239
               Partnerships Program         particularly rental housing, for low and very low income
                                            Americans; (2) to strengthen the abilities of State and
                                            local governments to design and implement strategies
                                            for achieving adequate supplies of decent, affordable
                                            housing; (3) to provide both financial and technical
                                            assistance to participating jurisdictions, including the
                                            development of model programs for developing
                                            affordable low income housing; and (4) to extend and
                                            strengthen partnerships among all levels of government
                                            and the private sector, including for-profit and nonprofit
                                            organizations, in the production and operation of
                                            affordable housing.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified.


                                      Compendium of Disaster Assistance Programs


                                                         Page 39 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 HUD           Community                    To provide communities with a source of financing for               14.248
               Development Block            economic development, housing rehabilitation, public
               Grants - Section 108         facilities, and large scale physical development projects.
               Loan Guarantees
 HUD           Single Family Property       To sell the inventory of HUD-acquired properties in a               14.311
               Disposition                  manner that expands home ownership opportunities,
                                            strengthens neighborhoods and communities, and
                                            ensures a maximum return to the FHA mortgage
                                            insurance fund.
 HUD           Historically Black           To assist Historically Black Colleges and Universities              14.520
               Colleges and                 expand their role and effectiveness in addressing
               Universities Program         community development needs in their localities,
                                            including neighborhood revitalization, housing, and
                                            economic development, principally for person of low-
                                            moderate income consistent with the purposes of Title I
                                            of the Housing and Community Development Act of
                                            1974 as amended.
 HUD           Section 8 Housing            To aid very low income families in obtaining decent,                14.871
               Choice Vouchers              safe, and sanitary rental housing. Etc.
 HUD           Public Housing Capital       The Capital Fund provides funds annually to Public                  14.872
               Fund                         Housing Agencies (PHAs) for capital and management
                                            activities, including modernization and development of
                                            public housing. The Capital Fund also permits PHAs to
                                            use Capital Funds for financing activities, including
                                            payments of debt service and customary financing costs,
                                            in standard PHA developments and in mixed-finance
                                            developments, which include Public Housing.
 HUD           Katrina Disaster             The KDHAP was designed to provide up to 18 months                      *
               Housing Assistance           of housing assistance to eligible families who were
               Program (KDHAP)              HUD-assisted prior to Hurricane Katrina. These
                                            payments are calculated at 100% of the fair market rent
                                            in any community in the country the evacuee selects,
                                            from Portland, Maine to Portland, Oregon. Nearly
                                            15,000 families have received KDHAP vouchers.
 LSC           Katrina Legal Aid            To provide a web-based clearinghouse of legal aid, pro                 *
               Resource Center              bono and public defender information for persons
                                            affected by the hurricane and lawyers and advocates
                                            helping them.
 NARA          National Historical          To undertake a wide-range of activities related to the              89.003
               Publications and             preservation, publication, and use of documentary
               Records Grants               sources relating to the history of the United States.
 NARA          Educational                  To provide information relating to emergency                           *
               Information on Record        preparedness and recovering from a disaster.
               Recovery and
               Preservation
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified.


                                      Compendium of Disaster Assistance Programs


                                                         Page 40 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 NARA          Recover and Restore          To recover and restore paper records damaged by flood                  *
               Paper Records                waters.

 SBA           Disaster Assistance          To provide loans to the victims of declared disasters for           59.008
               Loans                        uninsured or otherwise uncompensated physical
                                            damage.
 SBA           Other SBA Loan               Businesses declined for disaster assistance can apply for              *
               Programs                     other SBA loan programs (7A, 504, Express, Patriot,
                                            etc.)
 SSA           Social Security              To replace part of the earnings lost because of a                   96.001
               Disability Insurance         physical or mental impairment, or a combination of
                                            impairments, severe enough to prevent a person from
                                            working.
 SSA           Social Security              To replace part of the earnings lost to dependents                  96.004
               Survivors Insurance          because of the worker's death.

 SSA           Supplemental Security        To ensure a minimum level of income to persons who                  96.006
               Income                       have attained age 65 or are blind or disabled, and whose
                                            income and resources are below specified levels.
 SSA           Social Security - Work       To comply with the Ticket-to-Work and Work Incentives               96.008
               Incentives Planning          Improvement Act which was passed in December 1999,
               and Assistance (WIPA)        and reauthorized by the Social Security Protection Act
               Program                      of 2004, which requires the SSA to establish a
                                            community-based work incentives planning and
                                            assistance program. The purpose of this Program is to
                                            disseminate accurate information to beneficiaries with
                                            disabilities (including transition-to-work aged youth)
                                            about work incentives programs, and issues related to
                                            such programs, to enable them to make informed
                                            choices about working and whether or when to assign
                                            their Ticket-to-Work, as well as how available work
                                            incentives can facilitate their transition into the
                                            workforce. The ultimate goal of the WIPA Program is to
                                            assist beneficiaries with disabilities succeed in their
                                            return to work efforts.
 TREAS         Savings Bond                 Assist disaster victims by expediting replacement or                   *
               Replacement or               redemption of U.S. Savings Bonds.
               Redemption
 TREAS         Taxes: Disaster              To provide free tax information and assistance to                      *
               Assistance Program           taxpayers whose property has been damaged or lost in a
               (I-39)                       federally-declared disaster area.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified



                                      Compendium of Disaster Assistance Programs


                                                         Page 41 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 TREAS         Tax Refund: Excise           To provide Federal alcohol and tobacco excise tax                      *
               Tax                          refunds to businesses that have lost assets in a disaster.

 TREAS         Mutilated Currency           To replace U.S. currency mutilated by/from a disaster.                 *
               Program
 TREAS         New Markets Tax              Spur economic development in low-income areas.                         *
               Credits Program
 USDA          Tree Assistance              This program provides assistance to tree, bush and vine             10.082
               Program                      owners who have trees, bushes or vines lost by a natural
                                            disaster. The statute (Public Law 108-83) authorizes
                                            payments only for eligible owners who actually replant
                                            or rehabilitate eligible trees, bushes and vines and who
                                            produce annual crops from trees for commercial
                                            purposes.
 USDA          Dairy Market Loss            The purpose of this program is to provide benefits to               10.084
               Assistance Program           dairy operations under Public Law 105-277, 112 Stat.
                                            2681; Sections 805 and 825 of Public Law 106-78; and
                                            section 805 of Public Law 106-387 only, in order to
                                            provide financial assistance to dairy operations in
                                            connection with normal milk production that is sold on
                                            the commercial market.
 USDA          Emergency                    To enable farmers to perform emergency conservation                 10.054
               Conservation Program         measures to control wind erosion on farmlands, to
                                            rehabilitate farmlands damaged by wind erosion, floods,
                                            hurricanes, or other natural disasters and to carry out
                                            emergency water conservation or water enhancing
                                            measures during periods of severe drought.
 USDA          Conservation Reserve         To protect the Nation's long-term capability to produce             10.069
               Program                      food and fiber; to reduce soil erosion and sedimentation,
                                            improve water quality, and create a better habitat for
                                            wildlife
 USDA          Wetland Reserve              To assist landowners in restoring and protecting                    10.072
               Program (WRP)                wetlands on eligible lands on which they agree to enter
                                            into a permanent or long-term easement, or a restoration
                                            cost-share agreement with the Secretary. The goal of
                                            WRP is to maximize wetland functions and values and
                                            wildlife benefits on every acre enrolled in the program.
                                            Total acreage enrollment limitation is 2,275,000 acres.
 USDA          Emergency Loans              To assist established (owner or tenant) family farmers,             10.404
                                            ranchers and aquaculture operators with loans to cover
                                            losses resulting from major and/or natural disasters,
                                            which can be used for annual farm operating expenses,
                                            and for other essential needs necessary to return disaster
                                            victims' farming operations to a financially sound basis
                                            in order that they will be able to return to private
                                            sources of credit as soon as possible.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified.

                                      Compendium of Disaster Assistance Programs


                                                         Page 42 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 USDA          Farm Operating Loans         To enable operators of not larger than family farms                 10.406
                                            through the extension of credit and supervisory
                                            assistance, to make efficient use of their land, labor, and
                                            other resources, and to establish and maintain
                                            financially viable farming and ranching operations.
 USDA          Farm Ownership Loans         To assist eligible farmers, ranchers, and aquaculture               10.407
                                            operators, including farming cooperatives, corporations,
                                            partnerships, and joint operations, through the extension
                                            of credit and supervisory assistance to: become owner-
                                            operators of not larger than family farms; make efficient
                                            use of the land, labor, and other resources; carry on
                                            sound and successful farming operations; and enable
                                            farm families to have a reasonable standard of living.
 USDA          Very Low to Moderate         To assist very low, low-income, and moderate-income                 10.410
               Income Housing Loan          households to obtain modest, decent, safe, and sanitary
                                            housing for use as a permanent residence in rural areas.
 USDA          Rural Rental Housing         To provide economically designed and constructed                    10.415
               Loans                        rental and cooperative housing and related facilities
                                            suited for rural residents.
 USDA          Very Low Income              Section 504 loans and grants are intended to help very              10.417
               Housing Repair Loans         low-income owner-occupants in rural areas repair their
               and Grants                   properties.
 USDA          Rural Self-Help              To provide Self-Help Technical Assistance Grants to                 10.420
               Housing Technical            provide financial assistance to qualified non-profit
               Assistance                   organizations and public bodies that will aid needy very
                                            low and low-income individuals and their families to
                                            build homes in rural areas by the self-help method. Any
                                            State, political subdivision, private or public non-profit
                                            corporation is eligible to apply. Section 523 Grants are
                                            used to pay salaries, rent, and office expenses of the
                                            non-profit organization. Pre-development grants up to
                                            $10,000 may be available to qualified organizations.
 USDA          Rural Rental                 To reduce the tenant contribution paid by low-income                10.427
               Assistance Payments          families occupying eligible Rural Rental Housing, Rural
                                            Cooperative Housing, and Farm Labor Housing projects
                                            financed by the Rural Housing Service through its
                                            Sections 515, 514 and 516 loans and grants.
 USDA          Direct Housing -             To assist qualified recipients to meet emergency                    10.444
               Natural Disaster Loans       assistance needs resulting from natural disaster. Funds
               and Grants                   are only available to the extent that funds are not
                                            provided by FEMA. For the purpose of administering
                                            these funds, a natural disaster will only include those
                                            counties identified by a Presidential declaration.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                      Compendium of Disaster Assistance Programs


                                                         Page 43 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 USDA          Direct Housing -             To assist qualified lower income rural families to meet             10.445
               Natural Disaster             emergency assistance needs resulting from natural
                                            disaster to buy, build, rehabilitate, or improve dwellings
                                            in rural areas. Funds are only available to the extent
                                            that funds are not provided by FEMA. For the purpose
                                            of administering these funds, a natural disaster will only
                                            include those areas identified by a Presidential
                                            declaration.
 USDA          Crop Insurance               To promote the national welfare by improving the                    10.450
                                            economic stability of agriculture through a sound
                                            system of crop insurance and providing the means for
                                            the research and experience helpful in devising and
                                            establishing such insurance.
 USDA          Noninsured Assistance        To provide crop loss assistance comparable to the                   10.451
                                            catastrophic risk protection level of crop insurance to
                                            producers of commercial crops or other agricultural
                                            commodities for which the catastrophic risk protection
                                            level of crop insurance is not available.
 USDA          Disaster Reserve             To provide emergency assistance to eligible livestock               10.452
               Assistance                   owners, in a State, county, or area approved by the
                                            Secretary or designee, where because of disease, insect
                                            infestation, flood, drought, fire, hurricane, earthquake,
                                            hail storm, hot weather, cold weather, freeze, snow, ice,
                                            and winterkill, or other natural disaster, a livestock
                                            emergency has been determined to exist.
 USDA          Cooperative Extension        To help people improve their lives and communities                  10.500
               Service                      through an educational process that uses scientific
                                            knowledge focused on issues critical to the economic,
                                            agricultural, societal, health/safety, and environmental
                                            progress of all Americans. Identify and solve their
                                            farm, home, and community problems through the
                                            practical application of research findings of USDA and
                                            the land-grant colleges and Universities. The
                                            Cooperative Extension System is a future-oriented, self-
                                            renewing, national educational network providing
                                            excellence in programs that focus on contemporary
                                            issues and needs of people.
 USDA          Supplemental Nutrition       To improve diets of low-income households by                        10.551
               Assistance Program           increasing their food purchasing ability.

 USDA          Special Supplemental         To provide low-income pregnant, breastfeeding and                   10.557
               Nutrition Program for        postpartum women, infants, and children to age five
               Women, Infants and           determined to be at nutritional risk, at no cost,
               Children                     supplemental nutritious foods, nutrition education, and
                                            referrals to health and social services.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.



                                      Compendium of Disaster Assistance Programs


                                                         Page 44 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 USDA          Water and Waste              To provide basic human amenities, alleviate health                  10.760
               Disposal Systems for         hazards and promote the orderly growth of the rural
               Rural Communities            areas of the Nation by meeting the need for new and
                                            improved rural water and waste disposal facilities.
 USDA          Technical Assistance         To identify and evaluate solutions to water and waste               10.761
               and Training Grants          disposal problems in rural areas; to assist applicants in
                                            preparing applications made in accordance with 7 CFR
                                            1780; to improve operation and maintenance of water
                                            and waste disposal facilities in rural areas.
 USDA          Solid Waste                  To reduce or eliminate pollution of water resources and             10.762
               Management Grants            improve planning and management of solid waste
                                            disposal facilities in rural areas.
 USDA          Emergency Community          Through the Emergency Community Water Assistance                    10.763
               Water Assistance             Grant Program, the Rural Utilities Service is authorized
               Grants                       to help rural residents who have experienced a
                                            significant decline in quantity or quality of water to
                                            obtain adequate quantities of water that meet the
                                            standards of the Safe Drinking Water Act.
 USDA          Community Facilities         To construct, enlarge, extend, or otherwise improve                 10.766
               Loans and Grants             community facilities providing essential services to
                                            rural residents.
 USDA          Intermediary Relending       To finance business facilities and community                        10.767
               Program                      development.
 USDA          Business and Industry        To assist public, private, or cooperative organizations             10.768
               Loans                        (profit or nonprofit), Indian tribes or individuals in rural
                                            areas to obtain quality loans for the purpose of
                                            improving, developing or financing business, industry,
                                            and employment and improving the economic and
                                            environmental climate in rural communities including
                                            pollution abatement and control.
 USDA          Rural Business               To facilitate the development of small and emerging                 10.769
               Enterprise Grants            private business, industry, and related employment for
                                            improving the economy in rural communities.
 USDA          Rural Business               To promote sustainable economic development in rural                10.773
               Opportunity Grant            communities with exceptional needs.
 USDA          Renewable Energy             To create a program to make direct loans, loan                      10.775
               System and Energy            guarantees, and grants to agricultural producers (farmers
               Efficiency                   and ranchers) and rural small businesses to help reduce
               Improvement Program          energy costs and consumption and help meet the
                                            Nation's critical energy needs.
 USDA          Rural Electrification        To assure that people in eligible rural areas have access           10.850
               Loan and Loan                to electric services comparable in reliability and quality
               Guarantees                   to the rest of the Nation.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.




                                       Compendium of Disaster Assistance Programs


                                                         Page 45 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 USDA          Rural Telephone Loans        To assure that people in eligible rural areas have access           10.851
               and Loan Guarantees          to telecommunications services comparable in
                                            reliability and quality to the rest of the Nation.
 USDA          Resource Conservation        To encourage and improve the capability of State and                10.901
               and Development              local units of government and local nonprofit
                                            organizations in rural areas to plan, develop and carry
                                            out programs for resource conservation and
                                            development.
 USDA          Soil Survey                  To produce and maintain up to date published soil                   10.903
                                            surveys and other forms of soil survey databases of
                                            counties or other comparable size areas for widespread
                                            use by interested agencies, organizations, and
                                            individuals and to assist in the use of this information.
 USDA          Watershed Protection         To provide technical and financial assistance in carrying           10.904
               and Flood Prevention         out works of improvement to protect, develop, and
                                            utilize the land and water resources in watersheds.
 USDA          Watershed Surveys and        The Watershed Protection and Flood Prevention Act,                  10.906
               Planning                     Public Law 83-566, established the Watershed Program
                                            (16 U.S.C. 1001-1011). Section 6 of the Act provided
                                            for the establishment of the River Basin Surveys and
                                            Investigation Program (16 U.S.C. 1006-1009). A
                                            separate appropriation funded these two programs until
                                            fiscal year 1996 when they were combined into a single
                                            appropriation, Watershed Surveys and Planning. Public
                                            Law 83-566 provides the authority for the Natural
                                            Resources Conservation Service (NRCS) to cooperate
                                            with other Federal, State, and local agencies in making
                                            investigations and surveys of river basins as a basis for
                                            the development of coordinated water resource
                                            programs. River basin surveys and floodplain
                                            management studies provide local decision-makers with
                                            an inventory and analysis of the resource status and
                                            trends in their watershed, and the impact this has on the
                                            community. Etc.
 USDA          Snow Survey and              To provide information on forthcoming seasonal water                10.907
               Water Supply Forecasts       supplies from streams that derive most of their run off
                                            from snow melt. To help farm operators, rural
                                            communities, and municipalities use water-supply
                                            forecasts in managing water resources. To provide
                                            hydrometeorological data for regulating reservoir
                                            storage and managing stream flow. To provide soil
                                            moisture/temperature and climate data to support
                                            drought assessment, fire hazard assessment, wildlife
                                            management and climate change research. To obtain,
                                            evaluate and disseminate climate data in support of
                                            NRCS conservation activities including models.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.

                                      Compendium of Disaster Assistance Programs


                                                         Page 46 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 USDA          Environmental Quality        Provide technical and financial assistance to eligible              10.912
               Incentives Program           farmers and ranchers to address soil, water, and related
                                            natural resource concerns on their lands in an
                                            environmentally beneficial and cost-effective manner.
                                            This program provides assistance to farmers and
                                            ranchers in complying with Federal, State, and tribal
                                            environmental laws, and encourages environmental
                                            enhancement. The purpose of this program is achieved
                                            through the implementation of structural, vegetative,
                                            and land management practices on eligible land. This
                                            program is funded through the Commodity Credit
                                            Corporation (CCC). NRCS provides overall program
                                            administration and management
 USDA          Emergency Watershed          The objective of the Emergency Watershed Protection                 10.923
               Protection Program           Program is to assist sponsors, landowners, and operators
                                            in implementing emergency recovery measures for
                                            runoff retardation and erosion prevention to relieve
                                            imminent hazards to life and property created by a
                                            natural disaster that causes a sudden impairment of a
                                            watershed.
 USDA          Aquaculture Grants           Provides grants to states that suffered aquaculture losses             *
                                            due to the 2005 hurricanes Dennis, Katrina, Ophelia,
                                            Rita and Wilma.
 USDA          Feed Indemnity               Provides payments to eligible livestock owners and cash                *
               Program                      lessees who suffered feed losses or increased feed costs
                                            due to 2005 hurricanes Dennis, Katrina, Ophelia, Rita,
                                            and Wilma.
 USDA          Hurricane Indemnity          Provides funds to eligible agricultural producers who                  *
               Program                      suffered crop losses due to 2005 hurricanes Dennis,
                                            Katrina, Ophelia, Rita, and Wilma.
 USDA          Livestock Indemnity          Provides monetary assistance to eligible livestock                     *
               Program                      owners and livestock contract growers, for livestock
                                            deaths that occurred due to 2005 hurricanes Dennis,
                                            Katrina, Ophelia, Rita, & Wilma.
 USDA          Alternative Storage          CCC paid a one-time payment for alternative storage of                 *
                                            commodities. This further eased pressure on producers
                                            to market commodities under adverse conditions.
 USDA          Barge Unloading              CCC paid a one-time incentive to assist in the                         *
                                            immediate unloading of barges of agricultural
                                            commodities in the New Orleans area. Once unloaded,
                                            the empty barges were available to begin moving new
                                            crop commodities.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified.




                                      Compendium of Disaster Assistance Programs


                                                         Page 47 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT        PROGRAM TITLE                                         PURPOSE                                    CFDA
                                                                                                               NUMBER
 USDA         Conservation             Conservation systems are to reduce erosion, improve soil and                 *
              Technical                water quality, improve pasture and range condition, reduce
              Assistance               upstream flooding, and improve woodlands. NRCS can
                                       collect, analyze, interpret, display, and disseminate
                                       information about the condition and trends of the Nation's soil
                                       and other natural resources so that people can make good
                                       decisions about resource use and about public policies for
                                       resource conservation.
 USDA         Disaster Debt Set-       FSA borrowers located in designated disaster areas or                        *
              Aside Program            contiguous counties, who are unable to make their scheduled
                                       payments on any debt, may be authorized to have certain set
                                       asides.
 USDA         Transportation           To reduce stress on the Central Gulf transportation system,                  *
              Differential             CCC paid a transportation differential to cover the costs of
                                       moving grain to other transportation and locations. This
                                       measure encouraged new routes for commodity movement.
 USPS         Information and          Information and statistics.                                                  *
              Statistics
 VA           Specially Adapted        To help certain severely disabled veterans acquire a home,                64.106
              Housing for              which is suitably adapted to meet the special needs of their
              Disabled Veterans        disabilities.
 VA           Grants to States for     To assist States to acquire or construct State home facilities            64.005
              Construction of          for furnishing domiciliary or nursing home care to veterans,
              State Home               and to expand, remodel, or alter existing buildings for
              Facilities               furnishing domiciliary, nursing home, or hospital care to
                                       veterans in State homes.
 VA           Automobiles and          To provide financial assistance to certain disabled                       64.100
              Adaptive                 servicepersons and veterans toward the purchase price of an
              Equipment for            automobile or other conveyance and an additional amount for
              Certain Disabled         adaptive equipment deemed necessary to insure the eligible
              Veterans and             person will be able to operate or make use of the automobile
              Members of the           or other conveyance. To provide adaptive equipment only for
              Armed Forces             certain other disabled veterans.
 VA           Veterans Housing -       To provide veterans who are eligible for a Specially Adapted              64.118
              Direct Loans for         Housing grant with loan directly from the VA in certain
              Certain Disabled         circumstances.
              Veterans
 VA           Housing Assistance       To provide temporary housing to displaced citizens.                          *
              - Veterans

 VA           Pharmaceuticals:         To improve the health status of veterans by encouraging the                  *
              Dispensing of            appropriate use of medications in a comprehensive medical
              Medication               care setting.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified.


                                      Compendium of Disaster Assistance Programs


                                                         Page 48 

Appendix A
Disaster Assistance Programs by Department/Agency


   DEPT          PROGRAM TITLE                                       PURPOSE                                   CFDA
                                                                                                              NUMBER
 VA            Subsistence -                To provide compensation and pension benefits and                       *
               Compensation and             services for veterans, their dependents and survivors,
               Pension                      including, but not limited to: service-connected
                                            compensation, DIC, non-service connected pension,
                                            burial and accrued benefits, guardianship and public
                                            contact services.
Data in this report is as of January 14, 2009. Website subject to updates; refer to www.cfda.gov for current information.
* No CFDA number identified




                                      Compendium of Disaster Assistance Programs

                                                         Page 49
Appendix B
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Acting Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Acting Administrator
                      FEMA Audit Liaison
                      Federal Inspectors General

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                               Compendium of Disaster Assistance Programs


                                                Page 50 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
